<html>
<title> - TRAFFICKING OF WOMEN AND CHILDREN IN THE INTERNATIONAL SEX TRADE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
    TRAFFICKING OF WOMEN AND CHILDREN IN THE INTERNATIONAL SEX TRADE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 1999

                               __________

                           Serial No. 106-66

                               __________

    Printed for the use of the Committee on International Relations


                               <SNOWFLAKE>



                      U.S. GOVERNMENT PRINTING OFFICE

63-274 CC                     WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
              Gary Stephen Cox, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Hon. Harold Hongju Koh, Assistant Secretary of State, Bureau of 
  Democracy, Human Rights, and Labor, United States Department of 
  State..........................................................     8
Theresa Loar, Director, President's Interagency Council on Women, 
  United States Department of State..............................    13
Laura J. Lederer, Research Director and Project Manager, the 
  Protection Project, Harvard University, Kennedy School of 
  Government.....................................................    36
Gary A. Haugen, President and Chief Executive Officer, 
  International Justice Mission..................................    40
Anita Sharma Bhattarai, Trafficking Survivor, Nepal..............    35

                                APPENDIX

Hon. Christopher H. Smith,a U.S. Representative in Congress from 
  the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    56
Mr. Harold Hongju Koh............................................    60
Ms. Theresa Loar.................................................    72
 Dr. Laura J. Lederer............................................    87
Mr. Gary A. Haugen...............................................    92
Ms. Anita Sharma Bhattarai.......................................    98
Additional material:
Additional comments submitted by Mr. Koh.........................   103
Statement of Dr. Valora Washington, Executive Director, Unitarian 
  Universalist Service Committee.................................   104




    TRAFFICKING OF WOMEN AND CHILDREN IN THE INTERNATIONAL SEX TRADE

                              ----------                              


                      Tuesday, September 14, 1999

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                              Committee on International Relations,
        Washington D.C.
    The Subcommittee met, pursuant to call, at 1:05 p.m. In 
Room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) Presiding.
    Mr. Smith. Good afternoon, and thank you for coming to 
today's hearing. Today's hearing is to investigate one of the 
modern world's most serious and most widespread human rights 
problems: The trafficking of women and children for the 
international sex trade.
    Each year up to a million innocent victims, of whom the 
overwhelming majority are women and children, are brought by 
force and/or fraud into the international commercial sex 
industry. Efforts by the U.S. Government, international 
organizations and others to stop this brutal practice have thus 
far proved unsuccessful. Indeed, all the evidence suggests that 
instances of forcible and/or fraudulent sex trafficking are far 
more numerous than just a few years ago. Every day we read of 
news accounts of women and girls who are abducted in places as 
diverse as Burma, Kosovo, and Vietnam, and sold into sexual 
slavery in countries from Thailand to Israel, from China to the 
United States.
    Part of the problem is that current laws and law 
enforcement strategies, in the United States as in other 
nations, often punish the victims more severely than they 
punish the perpetrators. When a sex-for-hire establishment is 
raided, the women, and sometimes children, in the brothel are 
typically deported if they are not citizens of the country in 
which the establishment is located. Deportation is imposed 
without reference to whether their participation was voluntary 
or involuntary and without reference to whether they will face 
retribution or other serious harm upon return. This not only 
inflicts further cruelty on the victims, but also leaves nobody 
to testify against the real criminals and frightens other 
victims from coming forward.
    In order to reverse this cruel and ineffective approach, I, 
together with my colleague Marcy Kaptur, my good friend from 
Georgia, Ms. McKinney, and 25 other bipartisan cosponsors, have 
introduced H.R. 1356, the Freedom from Sexual Trafficking Act. 
This legislation is designed to protect and assist the victims 
of sexual trafficking while inflicting severe and certain 
punishment on the perpetrators. On August 4th, H.R. 1356 was 
marked up and reported favorably by our Subcommittee and will 
be soon moving to the full Committee.
    The central principle behind the Freedom from Sexual 
Trafficking Act is that a person who knowingly operates an 
enterprise that profits from sex acts involving persons who 
have been brought across international boundaries for such 
purposes by fraud or force should receive punishment 
commensurate with that given to those who commit forcible rape. 
This would not only be just punishment, but we believe also 
would be a powerful deterrent.
    H.R. 1356 would implement this principle across the board. 
First, it would modify U.S. criminal law to provide severe 
punishment, up to and including life imprisonment, for persons 
convicted of operating such enterprises wholly or partly within 
the United States.
    H.R. 1356 would also prohibit nonhumanitarian U.S. 
assistance to governments that continue to be part of the 
problem rather than part of the solution to forcible and 
fraudulent sexual trafficking, unless this prohibition is 
waived by the President, and there is a very generous waiver 
provided in the bill.
    The bill also provides victim assistance and protection. 
This includes grants to shelters and rehabilitation programs 
for victims of forcible and/or fraudulent sexual trafficking.
    It also includes relief from deportation for victims, 
provided it is established that they really were innocent 
victims, and that they have not unreasonably refused to assist 
in the investigation and prosecution of the perpetrators, and 
that they would face retribution or other hardship if removed 
from the United States.
    The bill also makes clear that trafficking victims are 
eligible for the Federal witness protection plan and provides 
them with a private right of action against those who have 
profited by the harm that was done to them.
    Finally, the bill authorizes grants for training for law 
enforcement agencies in foreign countries in the investigation 
and prosecution of international sex trafficking, as well as 
for assistance in drafting and implementation of 
antitrafficking legislation.
    H.R. 1356 has attracted widespread support and enthusiasm 
from across the political spectrum, but it has also found its 
share of critics. For example, the Administration and others 
contend that it is wrong or counterproductive to impose 
sanctions or even threaten to do so against foreign governments 
that condone sex trafficking. But nobody really believes that 
we should never sanction bad behavior by foreign governments. 
Rather, the question is how bad the conduct has to be in order 
to merit the sanctions and whether the sanctions are carefully 
tailored to deter the evils that they address.
    I would just note parenthetically, we were late in starting 
today because there was a vote on the floor dealing with East 
Timor and the fact that we are encouraging the President, and 
the language is even weaker than I would like to see, to 
further distance ourselves with regard to our military 
cooperation with the Government of Indonesia because of their 
ongoing, egregious problems with their military and the use of 
torture by their military, which Cynthia and I and others on 
the Subcommittee have heard repeatedly on hearings on that 
question. There are some times when behavior crosses the line 
and action needs to be taken, and again, there is a generous 
waiver contained within this legislation.
    H.R. 1356 contains smart sanctions, not dumb ones. It would 
give the President the opportunity but not the obligation to 
cut U.S. taxpayer subsidies to governments that condone or 
support sexual trafficking. There are no trade sanctions in 
this bill, only limitations on foreign aid. Humanitarian aid is 
explicitly exempted, and we have adopted a generous definition 
of humanitarian aid.
    Finally, even this very limited sanction against offending 
governments may be waived by the national interest waiver by 
the President. Remember, the legislation also authorizes new 
foreign assistance to governments that are making efforts to 
punish perpetrators and protect victims. So we provide both 
carrots and sticks, incentives and disincentives.
    We believe this bill provides a more balanced, moderate and 
flexible approach than a bill that would provide all carrots 
and no sticks. We give the President all the tools that we hope 
will be necessary to stop this unspeakable exploitation of 
women and children, not just some tools, and then it is up to 
the President to decide which tools he wants to use in each 
case.
    The Administration and some of its supporters also argue 
that antitrafficking legislation should be designed to stop not 
only the forcible and fraudulent trafficking of women for the 
international sex trade, but also other forms of trafficking 
such as the transportation of workers for sweatshops or other 
substandard working conditions. I can tell you I sympathize 
very deeply on some of those important points.
    Our bill explicitly recognizes that international sexual 
trafficking is not the only form of traffic in persons. 
Innocent people are lured, pressured, and lied to every day all 
over the world in all kinds of situations, and I take second 
place to no one in my commitment to ending all labor practices 
that are coercive, deceptive, or otherwise improper, or even 
when they involve labor that is not in and of itself inherently 
degrading.
    The problem with addressing all of these evils in one bill, 
the idea that one size fits all, is that they involve wide 
range of different situations which may call for an equally 
broad range of solutions. So we decided to start by attacking 
the most brutal form of trafficking, I believe, the use of 
force and deception in the systematic degradation of millions 
of women and children, and singling it out for swift and 
certain punishment.
    We believe that by focusing on this particularly egregious 
practice, the forcible or fraudulent trafficking of women and 
children for commercial sex purposes, we can stop it sooner 
than if we had tried to address the far broader range of evils. 
H.R. 1356 is far tougher on the criminals and far more generous 
to victims than would be appropriate if we were trying to 
legislate about working conditions in legitimate industries 
rather than to punish rapists and protect rape victims.
    In comparison, even though I know the bill has been 
introduced, it clearly shows our bill would provide for life 
imprisonment, which makes it very clear that we are serious. 
Put these people away, lock them up and throw the key away, 
seems to me the only way to deal with the question of those who 
commit these heinous crimes. I also believe that this 
legislation to end sexual trafficking will also command a far 
broader consensus in Congress, among the American people, and 
around the world, than legislation that would address a much 
wider range of problems and then do a lot less about them. If 
the Administration wants to get behind this legislation and 
then followup with legislation on related issues, I will be 
there, willing to work with them.
    But while we are working on shaping an approach to these 
other problems and on building the necessary consensus for 
addressing them, we must not delay even for a single day the 
effort to save these millions of women and children who are 
forced every day to submit to the most atrocious offenses 
against their persons and against their dignity as human 
beings. Forcible and fraudulent trafficking of women and 
children for the commercial sex trade is a uniquely brutal 
practice. It is commercial rape, and it cries out for its own 
comprehensive and immediate solution. We must act to end it 
now, and I hope that we will have the support as we move this 
through the House and the Senate.
    [The statement of Mr. Smith appears in the appendix.]
    Mr. Smith. I would like to yield to my good friend Cynthia 
McKinney, the Ranking Member of our Subcommittee.
    Ms. McKinney. Thank you, Mr. Chairman. First of all, I 
would like the thank you for your personal efforts to bring to 
the forefront this issue of sexual trafficking, a practice that 
involves tens of thousands of women all around the world. I 
join the Chairman in his concern for this grave abuse of women 
and children that has not received the attention it deserves by 
the Administration or the international community. I truly wish 
to work with him on curtailing this outrageous activity. The 
Chairman and I can move this issue to the forefront and work 
together to develop a viable bill that can pass the Congress 
and get signed into law.
    Women and children are forced into the illegal commercial 
sex trade. Efforts to place limits on this barbarous practice, 
as Chairman Smith has so correctly pointed out, has not been 
successful. This bill is not a perfect bill, but it can be made 
better as it works its way through the Committee process. 
However, I do believe that this bill is an important first step 
in the right direction. I would like the Chairman to know that 
we are not that far apart on this issue, and I would join him 
in cosponsoring this legislation.
    I am deeply grateful for the testimony submitted by the 
witnesses today. In particular, Ms. Anita Bhattarai, a survivor 
of sexual trafficking from Nepal, is extremely courageous to 
step forward today and tell us her heart-wrenching story. It 
personally pains me to know that at least four other witnesses 
were scheduled to testify today but at the last minute backed 
out. Who can blame them, women who have been forcibly raped are 
forced to relive the tragedy in order to bring charges against 
their attackers? The embarrassment and humiliation never go 
away, even with the passage of time. Therefore, Ms. Bhattarai, 
I thank you for being willing to share your story with us today 
so that all the world may know we must act so that your story 
is not repeated over and over and over again.
    Personally I would like to expand the scope of this bill. I 
have procedural concerns that labor issues are not specifically 
addressed in this bill. In certain countries it is a well-known 
practice to import laborers as servants. The master of the 
house then proceeds to lift the passport from the employee's 
possessions, pays them less than the prevailing wage, and in 
many cases sexually exploits the worker. While in theory this 
bill would cover this practice, I am not so sure that these 
particular circumstances are fully addressed. Mr. Chairman, we 
should have our staffs working together to see what we can do 
on this one issue to try and broaden the scope of this bill 
just a little bit.
    H.R. 1238, the International Trafficking in Women and Child 
Protection Act, introduced by Congresswoman Louise Slaughter, 
of which I am also a cosponsor, addresses some of the concerns 
regarding slavery and sexual exploitation by employers. We have 
to look at this legislation and try to see what we can do to 
address the issue of sexual exploitation of workers by 
employers.
    I don't want to ignore the other victims of trafficking; 
however, I am of like mind with the Chairman that we cannot 
develop a broadly scoped bill addressing all issues of 
international human trafficking that could realistically pass 
this Congress. H.R. 1356 is a first step, and it is an 
important first step.
    I want to work with the Chairman to protect the women and 
children, victims of human sexual trafficking throughout the 
world.
    The strengths of H.R. 1356 include a modification of U.S. 
law to provide severe punishment, up to a life sentence, for 
persons convicted of sexual trafficking. It addresses the issue 
of transporting persons across international borders for this 
practice. It addresses the issue of engaging in the sale of a 
person for this practice as well as addressing the enterprise 
of sexual trafficking itself.
    On the other hand, my colleagues at the Department of State 
have told me they oppose the creation of an office for the 
protection of victims of trafficking. This office will file an 
annual report on foreign countries that fail to criminalize and 
appropriately punish international sexual trafficking. While I 
have concerns about creating a separate office, I would like to 
ask the Department of State officials how they can address our 
concerns without the creation of a separate office.
    I asked in my previous remarks of August 4th, if there is a 
creative way to increase our emphasis on this issue without 
creating more bureaucracy, and I have not had an adequate 
response from the Department of State on this question. In 
light of the nonresponse from DOS, perhaps there does need to 
be an approach similar to the approach followed by our 
Chairman.
    Further, the bill provides victim assistance and 
protection, provisions for grants to rehabilitation centers and 
grants to shelters. I support these provisions. The bill limits 
the deportation of victims to determine whether or not they 
were forced into sexual trafficking, and this bill clears the 
way for victims to participate in the witness protection 
program as long as they cooperate with Federal authorities to 
break up the organized sex trade rings. These are good points 
in the legislation.
    The Department of State is opposed to the sanctions 
provisions in the bill. The argument is that it is 
counterproductive to impose sanctions. In light of the 
sanctions against Iraq, I find this argument incredulous. The 
Secretary of State has said that the deaths of 5,000 Iraqi 
children each month is a price that she is willing to pay. For 
what? A nonexistent Iraqi policy? I think all arguments put 
forward by the Department of State should be measured by this 
statement by Secretary Albright. In light of the fact that 
right now the U.S., Japan, and the IMF are arguing for economic 
pressures to be used against Indonesia, I would like to know 
what the alternative measures being proposed by this State 
Department are to eliminate this heinous practice. We should 
work to put an end to the international exploitation of women 
and children.
    The bill does provide the President with a waiver. The 
sanctions in this bill do not kill women and children by 
denying them food and medical aid as is the case with some of 
our other misguided policy. This legislation, like the Chairman 
has mentioned, uses a carrot-and-stick approach. We reward 
those who comply with accepted international standards, and we 
use very limited sanctions against governments who do not 
comply.
    In conclusion, Mr. Chairman, the Smith bill and the 
Slaughter bill are not necessarily at odds with each other. I 
want to offer you this opportunity for us to work together to 
produce a viable bill. This cause is noble and just. I hope we 
can work with the Administration to address their concerns, and 
I have instructed my staff to work closely with your staff on 
this very important international issue.
    Thank you, Mr. Chairman.
    [The information referred to appears in the appendix.]
    Mr. Smith. Thank you very much, I say to my friend from 
Georgia, for your excellent statement and for your good, strong 
support for this. One of the areas of bipartisanship that goes 
underreported and underheralded is in the area of human rights. 
we have worked with you and with your predecessor Tom Lantos, 
who also was Ranking for a number of years and Chairman of this 
Committee before me, in a very cooperative way, because we all 
believe in the human dignity of people. So I want to thank you 
for your fine statement.
    The gentlelady from California, Ms. Lee.
    Ms. Lee. Thank you very much, and I want to thank you and 
our Ranking Member Ms. McKinney for your very stellar and very 
consistent work on behalf of human rights throughout the world. 
Let me just say to you that this is an issue that we all have 
to address and we all have to deal with. People in my district 
really don't even believe this takes place in the world right 
now. So these hearings are very, very important to raise public 
awareness with regard to the whole issue of the sexual 
trafficking and the abuses that women and children in 1999 are 
subjected to throughout the world.
    I just want to thank you for this bold action, for this 
bold piece of legislation, and I look forward to the hearing.
    Mr. Smith. Thank you very much, Ms. Lee.
    Mr. Smith. Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I want to thank and commend 
you for not only calling this very important hearing, but also 
introducing legislation that addresses this very serious 
matter. In the years that I have served with you on this 
Committee, Mr. Chairman, I certainly want to commend your 
leadership, and I say outstanding leadership, in our Nation in 
leading the forefront, the problem of human rights violations 
throughout the world, and I think that this legislation is an 
excellent start. I am sure the concerns raised by our good 
friend, the gentlelady from Georgia will be addressed 
accordingly, and there is a lot of time that we can do this 
constructively.
    If I might be so bold, Mr. Chairman, in not taking away the 
spirit of the hearing this afternoon is we are talking about in 
this legislation addressing the problems of sex for sale and 
women and children. I come away very concerned, and I certainly 
want to thank you again.
    Over the years we have been holding hearings about human 
rights violations in this place called East Timor, and when we 
talk about if there is none other in the times of war or 
whenever there is a revolution, whenever there is a military 
takeover--which, by the way, Mr. Chairman, that is exactly what 
happened. Twenty-five years ago the Indonesian military came 
over and massacred, literally massacred, over 200,000 East 
Timorese men, women and children before they were finally 
supposedly annexed by the Indonesian Government, and to this 
day not only does the United Nations not recognize this act by 
the Indonesian military, but our own country never recognized 
this takeover that was done 25 years ago. So all of the sudden 
it seems like, hey, what is happening there? It has been there 
the last 25 years. We turned our backs on these people, and all 
these years that we have neglected to face up to the issue.
    This is not an Asian issue, Mr. Chairman. It is a human. 
These people are human beings. They may not be Europeans in 
Kosovo or in other places in Europe, but they are human beings, 
and we ought not to forget them.
    Again, I commend you for this, and I look forward to 
hearing from our good friend, the Assistant Secretary, and the 
associate here, for this hearing this afternoon. Thank you 
again, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Faleomavaega. I would 
like to introduce our very two distinguished panelists, and we 
thank the Administration for making your time available to be 
here.
    First of all, I would like to introduce Ms. Theresa Loar, 
whom I have known for 30 years. We have been good friends. We 
went to high school together, and she now is in a very, very 
important position as Senior Coordinator for International 
Women's Issues at the State Department, a position she assumed 
in July 1996. She also serves as the Director of the 
President's Interagency Council on Women. Previously Ms. Loar 
served on the U.S. delegation to the U.N. Fourth World 
Conference on Women, as well as in diplomatic posts in both 
Mexico and Korea.
    I would also like to welcome a man whose reputation 
preceded him for his work on human rights, Harold Koh. He was 
appointed Assistant Secretary of State for Democracy, Human 
Rights, and Labor in 1998. Before that appointment, Mr. Koh 
served as both a professor of international law and as the 
Director of the Center for International Human Rights at Yale 
Law School. Assistant Secretary Koh, who earned both his BA and 
law degrees from Harvard, has authored numerous articles on 
international law and human rights. He is also a fellow 
Commissioner on the Commission on Security Cooperation in 
Europe, and it is kind of nice because very often he sits right 
up here and gets to quiz all the witnesses as well, and does a 
great job. I am looking forward to working with him on the 
upcoming Istanbul summit.
    I would also like to note for the record that Anita Botti 
has done great work on this issue as well and previously had 
testified before the Helsinki Commission, She did a masterful 
job on the issue, and we are grateful for her good work day to 
day on that issue.
    Mr. Smith. I am told that protocol suggests Secretary Koh 
goes first, so I would like to yield the floor to him.

 STATEMENTS OF HON. HAROLD HONGJU KOH, ASSISTANT SECRETARY OF 
  STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, UNITED 
                   STATES DEPARTMENT OF STATE

    Mr. Koh. Thank you, Mr. Chairman and Members of the 
Committee, for holding today's hearing on the worldwide problem 
of trafficking of persons. You should be commended for shining 
a spotlight on this important human rights issue. Hearings such 
as this demonstrate the interest of the U.S. Government in 
combating these egregious practices and send a clear signal to 
traffickers that they will not be tolerated.
    Mr. Chairman, this past July, as you know, the 
Parliamentary Assembly of the Organization for Security and 
Cooperation in Europe unanimously passed a resolution 
condemning sexual trafficking, a success for which you played a 
very large role, and I applaud you and your colleagues on the 
U.S. Delegation for your leadership in agreeing to this 
resolution which urges participating States to punish 
traffickers even while raising public awareness of the crime of 
trafficking.
    Mr. Chairman, my friend and colleague Theresa Loar, 
Director of the President's Interagency Council on Women and 
Senior Coordinator for International Women's Issues at the 
State Department, has joined me here today to discuss how we 
can all work together to address this crucial issue. By 
appearing together we send the message that the entire 
Administration shares your determination that we must stop 
those who profit from the tragedy of trafficking, and we must 
help those who are its victims once again find dignity. This is 
an issue that has touched my life personally and 
professionally, both in my work as a private human rights 
attorney and now as Assistant Secretary for Democracy, Human 
Rights and Labor.
    As you know, as a private refugee attorney I represented 
thousands of Haitians, Cubans, and Chinese citizens who took 
the small boat seeking safe haven in the United States. Some of 
them no doubt were victims of traffickers. I also was co-
counsel in New York in a well-publicized case involving a group 
of hearing-impaired Mexican workers who were victims of a 
heartless trafficking scheme that was designed to rob them of 
their money, livelihood and, most important, their dignity.
    Since coming to the State Department, I have worked to make 
sure that the Administration addresses all forms of 
trafficking. This past March I traveled to Chiang Mai, 
Thailand, with Secretary of State Albright, where we visited 
the Hill Tribes Institute which has worked diligently to 
educate indigenous people and to create economic alternatives 
to the dangers of sex trafficking.
    Mr. Chairman, some of the young girls in that institute 
were no older than my daughter, who is only 13 years old. That 
experience reminded me that trafficking hits us so hard because 
it so often involves children like our own. That so many around 
the world would resort to the exploitation of innocence for 
personal and monetary gain must be regarded as one of the most 
brutal forms of evil that we confront today.
    With these children in mind, I present my testimony with 
regard to this trafficking issue. All too often we think of 
trafficking as a faceless problem, a criminal problem, an 
economic problem, an immigration problem, a health problem, but 
let me speak about it not as a multibillion dollar industry, 
although it is, nor as an immigration or health problem, 
although it is also that. Let me speak about it from the 
perspective of a human rights lawyer who sees in trafficking 
the very antithesis of the Universal Declaration of Human 
Rights.
    I would argue that trafficking represents one of the most 
comprehensive challenges to human rights today, for it involves 
the very denial of the humanity of its victims. Traffickers 
abuse virtually the entire spectrum of rights protected in the 
Universal Declaration. By their acts they deny that persons are 
born free and equal in dignity and rights. They deny their 
victims freedom of movement, freedom of association, and the 
most basic freedom to have a childhood. Traffickers profit from 
arbitrary detention, slavery, rape, and cruel, inhuman and 
degrading treatment. They regularly violate any human right 
that gets in the way of a profit. Most fundamentally, they do 
not respect any of these rights because they view their victims 
as objects, chattel to be bought and sold as needed.
    Trafficking is truly a global plague that may appear in 
Denver as well as Delhi, in London as well as Lagos. It takes 
many forms, from forced prostitution to bonded domestic 
servitude, from coerced sweatshop work to the pressing into 
service of child soldiers. It involves women and children, yes, 
but also men, victims from every walk of life, every culture, 
every religion.
    Following my prepared testimony, Theresa Loar and I would 
be happy to discuss particular examples of trafficking from 
numerous countries around the world. In my capacity as the 
Assistant Secretary of State, we present annually country 
reports on human rights practices, and in the report we 
presented this past February, we identified at least 60 
countries in which trafficking takes place. This was a 
conservative estimate that represents nearly a third of the 
countries in the world. But before turning to the specifics, 
let me get to the broader scope and complexity of the problem.
    Practices vary from region to region and according to type 
of trafficking, as the Chair has noted, but it is possible to 
make some generalizations about the scope of the problem. 
Trafficking involves a vicious cycle in which victims are 
forced or lured from their home countries. They are shuttled 
across international borders and enslaved, with human rights 
violations occurring every step of the way. In source countries 
where trafficking originates, and this can be in any part of 
the world, including the United States, victims of trafficking 
can include men, women and children of every age group, 
although a majority are women and girls under the age of 25. 
Some respond to employment agencies fronting for traffickers. 
Some are sold to traffickers because their families can't 
afford it. A few are tricked into traveling with so-called 
family friends only to discover that they have been kidnapped 
or ensnared into slavery. In almost every situation traffickers 
prey upon the hopes and fears of their victims. They offer them 
shelter and sympathy in the case of the runaway, a false way 
out of debt in the case of the poor, and a false hope of a 
better life for those seeking transit abroad.
    In many cases victims are sent to transit countries where 
traffickers make it clear that they have no choice but to 
accept prostitution, debt bondage or other forms of involuntary 
servitude. Once the person is in the trafficker's hands, the 
trafficker regularly uses any and all means to ensure their 
cooperation, including drugs, violence and sexual assault, and 
threats to the victims and their families. If they have 
identity papers, the trafficker often seizes or destroys them 
to ensure compliance, and once money has been exchanged, 
victims are often told that the cost of transport is greater 
than expected, and they will have to work for years or months 
to pay the trafficker back.
    Traffickers frequently move victims from safe house to safe 
house, city to city, or country to country, and once victims 
arrive in a receiving country, they are often kept in squalid 
conditions in the state of virtual house arrest. In their 
world, violence, drugs, and threats about the authorities are 
part of a brutal, daily routine, and long hours of forced 
servitude in a brothel as a prostitute, at gunpoint as a child 
soldier or at a sewing machine as a sweatshop worker. What 
little compensation comes their way is usually only a tiny 
percentage of their actual earnings, with the balance claimed 
by the trafficker to cover so-called costs or to repay so-
called loans.
    In cases involving prostitution and pornography, victims 
are forced to continue working regardless of disease, which 
means that many work throughout pregnancies and despite having 
contracted sexually transmitted diseases, including HIV. 
Indeed, the HIV crisis has only fueled the expansion of sex 
trafficking, with pimps seeking increasingly younger girls and 
boys in an effort to market them to customers as clean. Health 
care is nonexistent or provided only by fellow victims, leaving 
most victims at high risk of further health complications and 
ensuring that many children born to trafficking victims while 
in captivity will themselves be trafficked, usually through 
adoption rings, and thus ensuring that this vicious cycle will 
continue.
    With this background of this vicious cycle of trafficking 
sketched, let me now turn to the issue of possible legislation, 
in particular, H.R. 1356, the Freedom from Sexual Trafficking 
Act of 1999. Mr. Chairman, we could not agree more with your 
statement before the OSCE Parliamentary Assembly, it is time to 
aggressively attack this contemporary manifestation of slavery, 
and there is no other word for it. As my colleague Theresa Loar 
will testify, our Administration has taken a strong stand 
against trafficking in persons and has involved many agencies 
in a cooperative effort to combat the problem no matter where 
it may occur, but at the same time we recognize that this 
Congress, like the administration, has focused greater 
attention on this horrifying practice than any predecessor.
    The Administration strongly supports the bill's objective 
of combating trafficking and appreciates the efforts of 
Chairman Smith and the other bill sponsors to try to craft 
legislation that reflects our shared goals, preventing 
trafficking, prosecuting those who engage in these terrible 
crimes and protecting trafficking victims. We are committed to 
working with you and other Members to fight trafficking through 
a variety of means, and we believe that joint Congressional-
Administration attention will send a strong message worldwide 
about the seriousness of the U.S. Government effort.
    For that reason, we also agree on the need for statutory 
protection of aliens in the United States who are victims of 
trafficking and in strengthening our own criminal laws to help 
bring traffickers to justice. We agree that reporting on all 
forms of trafficking of persons as a violation of international 
human rights is crucial to determining the nature and extent of 
the problem. The first step in deterring trafficking and 
bringing traffickers to justice is to identify and break the 
vicious cycle I have described in countries of origin, transit 
countries and receiving countries.
    At the same time, however, we do not believe in reinventing 
the wheel. In our judgment new reporting requirements are 
unnecessary and would further burden the already overworked 
staff members of my bureau's Office of Country Reports and 
Asylum Affairs, who, after submitting to Congress in February a 
5,500-page report, filed an 1,100-page document on religious 
freedom just last week.
    I would argue that the best framework within which the 
Administration can report on trafficking already exists in our 
annual Country Report on Human Rights Practices, which is the 
principal human rights document by which the government reports 
to Congress and this Committee on all human rights conditions 
worldwide. By using these existing, well-established and well-
respected reports as the method of choice to spotlight the 
trafficking issue as an important human rights concern, we can 
ensure that reporting on trafficking will not be marginalized, 
but rather, fully integrated into our broader yearly human 
rights reporting.
    To expand both the breadth and depth of our coverage in the 
country reports, I am pleased to announce today that we have 
made a commitment this year to add a new subsection on 
trafficking in each of the 194 country chapter reports in 1999 
reports under section 6, which is entitled ``Worker Rights.''
    In the same vein, we believe the draft legislation best 
serves our goal when it consolidates and strengthens existing 
response mechanisms rather than creates new cumbersome 
mechanisms in their stead. The draft bills we have seen focus 
almost solely on trafficking in women and children for sexual 
purposes, but as I have described, the phenomenon is much 
broader and is better described as the problem of trafficking 
in persons.
    Moreover, the draft bills choose to address the issue by 
imposing new reporting requirements, by creating one or more 
new layers of bureaucracy and creating mandatory sanctions 
requirements that target government actors. Even private 
traffickers bear major responsibility for the problem where 
creation of economic alternatives to trafficking, not 
punishment of State entities, is most likely to provide relief 
for the victim.
    Given the scope and magnitude of the problem, I fully 
understand the temptation to search for a new legislative 
approach or mechanism to address these problems. The new 
reporting, new offices and new sanctions are not solutions in 
themselves, nor do we think they would yield a quick fix for 
what is a massive and complex global problem. To address the 
problem effectively, we need to focus on recurring features of 
the generic problem, to support existing response mechanisms, 
and then to do everything in our power to break this vicious 
cycle of human violations that are occurring.
    Mr. Chairman, we already have a human rights bureau with a 
global mandate. As Theresa Loar will tell you, we already have 
the President's Interagency Council to help coordinate the 
Executive Branch response. We already have human rights 
reporting on trafficking, which, as I have said, will be more 
thorough and comprehensive on this issue, from this year 
forward. We already have a range of diplomatic tools at our 
disposal to address the issue, including essentially all of the 
sanctions discussed in the various draft bills. Most 
importantly, we already have the political will to address the 
question.
    What we need is not new institutions and new bureaucratic 
requirements, but sufficient capacity for existing offices that 
already recognize the problem and have a mandate to deal with 
it.
    The draft bill from the House side appears to be modeled on 
the International Religious Freedom Act of 1998, particularly 
its emphasis on mandatory sanctions. But for three important 
reasons we believe that the Religious Freedom Act represents an 
inappropriate paradigm for anti trafficking legislation. First, 
unlike religious persecution which tends to occur within a 
single country, trafficking in persons represents a 
transnational problem involving the forced movement of people 
across borders. As a result, mandatory sanctions targeted 
against any one country will not likely have the desired 
impact.
    Second, targeted sanctions against specific states are far 
less effective when the prime moving force behind the problem 
are not national government officials or policies, but nonstate 
actors. Traffickers, like their counterparts in international 
organized crime and narcotics, avoid national criminal 
penalties by shifting their base of operations across borders 
to reap the highest level of profit. Trafficking tends to be a 
bottom-up, not a top-down, problem. The root causes usually 
rest in private greed and economic and social conditions, not 
government micromanagement.
    When foreign government officials are involved or complicit 
in trafficking, it is usually at the provincial and local level 
where the blunt instrument of sanctions has decidingly less 
impact. Similarly, unlike victims of religious persecution, 
victims of trafficking rarely belong to organized groups and 
don't enjoy the protection of established transnational 
institutions, like organized religion, who are capable of 
speaking out on their behalf.
    As the admirable NGO advocates who will testify later will 
tell you, there is no corresponding private organization to 
support the acts of victims of trafficking that can work 
together with the effect of sanctions, and without such private 
institutional supports, the sanctions are less likely to 
succeed.
    Finally, because trafficking is a burgeoning problem, Mr. 
Chair, as you know from your own work with the OSCE 
parliamentarians, governments around the world are increasingly 
concerned about the issue and starting to address it. A great 
many affected governments want to deter trafficking but lack 
the resources to do so. But if we implement the legislation as 
proposed, almost all countries could find themselves in default 
of some mandatory statutory requirement and, hence, be subject 
to mandatory sanctions.
    A unilateral sanctions regime that targets even those 
countries who are starting to address the issue could end up 
discouraging rather than encouraging effective international 
cooperation and the emerging international regime to address 
the problem. For example, mandatory sanctions could seriously 
undermine our efforts to negotiate the Trafficking in Persons 
Protocol.
    In sum, new legislation should not, in our view, focus on 
developing unnecessary new institutions or establishing onerous 
new requirements that address only the symptoms and pathology 
of the problem. Instead, we hope the Congress and the 
Administration can work together within the Department's 
existing legislative framework to find ways to address the root 
causes of the problem and to break this vicious global cycle of 
trafficking.
    We look forward to working with you and other Members of 
the Committee to identify the most effective means and 
mechanisms to strengthen our mutual commitment to break this 
vicious cycle. Thank you, Mr. Chairman. I would now like to 
turn the floor over to my colleague and your old friend Theresa 
Loar, who has played such a key role in facilitating the 
Administration's response on this important issue.
    Mr. Smith. Thank you very much, Secretary Koh, and I put 
you down as undecided on sanctions, by the way.
    Mr. Smith. We have been joined by on the panel for the by 
Congressman Tom Tancredo, who has been a very active Member of 
the Human Rights Subcommittee. Tom, do you have any opening?
    Mr. Tancredo. No statement. I will have questions when we 
get to them.
    Mr. Smith. I would like to yield to my good friend Theresa 
Loar.

 STATEMENT OF THERESA LOAR, DIRECTOR, PRESIDENT'S INTERAGENCY 
      COUNCIL ON WOMEN, UNITED STATES DEPARTMENT OF STATE

    Ms. Loar. Good afternoon, Mr. Chairman and Members of the 
Committee. On a personal note, more than 25 years ago, when we 
walked the halls of St. Cecilia's Grammar School and St. Mary's 
High School as students together, I never could have imagined 
that today I would have the privilege and the opportunity to 
testify in the halls of Congress before my fellow classmate and 
friend, the Honorable Chairman.
    Mr. Chairman and Members of the Committee, my colleague and 
friend Harold Koh and I want to thank you for the invitation to 
testify on the problem of trafficking in women and children 
around the world and the implementation of the U.S. strategy on 
prevention, protection and prosecution. Of all the human rights 
abuses to which the international community has turned its 
attention, the trafficking of human beings, predominantly women 
and children, is clearly one of the most egregious violations 
of our time. The President, the Secretary of State and the 
Attorney General have all shown tremendous commitment to this 
issue, having made significant progress over the past year 
using this strategy.
    Mr. Chairman, your efforts to focus attention on this 
important issue are welcome. Your advocacy during international 
travel and your consistent attention to the needs of victims 
will continue to be crucial as we work together to accomplish 
our shared goals. We look forward to continue working closely 
with Congress on legislation that will support and advance the 
U.S. policy framework. As Director of the President's 
Interagency Council on Women, I see the Council's work on 
trafficking as part of our government's broader commitment to 
eliminate violence against women around the world.
    As senior coordinator for international women's issues my 
work on trafficking is a vital part of my mandate to promote 
women's human rights within U.S. foreign policy. We have been 
mobilizing the Federal Government to combat trafficking. We 
coordinate the efforts of various Federal agencies and several 
State Department bureaus. We have focused on ways to 
institutionalize the treatment of trafficking and U.S. 
Government initiatives.
    Mr. Chairman, we gratefully acknowledge your efforts in 
meeting with trafficking victims to deliver a strong message of 
U.S. support and concern. Members of the Council Interagency 
Team and I have also met face to face with trafficking victims 
from countries such as Albanian, Ukraine, Nigeria, Mexico, and 
Thailand. These encounters, always heartbreaking and at times 
involving personal risk to the trafficking victims, have only 
deepened our resolve to use the full force of our government to 
combat this modern form of slavery.
    Today, Mr. Chairman, I would like to share with you 
information about the nature and scope of trafficking, the 
three-part strategy of prevention, protection and prosecution, 
and our work throughout the Department of State and the U.S. 
Government, domestically and internationally. I will also 
describe our partnership with the NGO community.
    Trafficking in human beings is a form of modern-day 
slavery. At its core, the international trade in women and 
children is about rape, abduction, coercion, violence and 
exploitation in the most reprehensible ways. Although this is 
sometimes characterized as a women's issue, it is, in fact, a 
global issue involving human rights, economics, migration, 
transnational crime, labor, and public health. It is estimated 
that there are over 1 million women and children trafficked 
every year, over 50,000 into the United States.
    Although this hearing focuses on the sex industry, it is 
clear that this is merely one component of trafficking. 
Traffickers themselves are often engaged in more than one kind 
of trade because they follow the profits. For example, we see 
cases where girls are lured from villages in South Asia, and 
the traffickers force some of the girls to work in domestic 
servitude or in carpet weaving, while others considered more 
attractive are culled out and sold to brothels. These are some 
of the practical reasons why the United States did not limit 
its efforts to one form of trafficking over another.
    What is it that drives trafficking in women and children? 
Economic desperation. Children, and girls in particular, are 
pulled out of school early because of financial hardship in a 
family. This enhances the likelihood they will fall into the 
hands of traffickers. In many cases, victims desperate for work 
are lured into trafficking schemes through false promises of 
employment as teachers, factory workers, nannies, sales clerks. 
They are then forced into the sex industry or domestic 
servitude.
    For the traffickers it is primarily about high profits and 
low risk. Profits are enormous, generating billions of dollars 
annually. This is now considered the third largest soft source 
of profits for organized crime, behind only drugs and guns.
    We are implementing our comprehensive antitrafficking 
strategy in the area of prevention, protection and assistance 
for victims, and prosecution and enforcement against 
traffickers. Secretary of State Madeleine Albright has made the 
issue of trafficking a priority. We have seen how powerful it 
is to have the American Secretary of State raise this issue 
with heads of government and her fellow foreign ministers. She 
has used her role as Chair of this Interagency Council to 
mobilize a strong governmentwide response.
    As a result of her meetings with several world leaders and 
in several international arenas, we have developed concrete 
partnerships, advancing all three of our strategies, all three 
parts of our strategies. In Ukraine, we have economical 
alternative programs for victims. We have seen some results, 
and there is new legislation that has been enacted. With Italy 
and the Holy See, we are learning from them about protection 
for victims. With Finland, we are collaborating on prevention 
in the Baltics. The U.S. and the Philippines will launch a 
regional initiative in March 2000 in Manila.
    We also have several multilateral initiatives. The U.S., 
led by the State Department Bureau of International Narcotics 
and Law Enforcement and my colleague Jim Puleo, are leading 
U.N. Negotiations on a protocol as part of a transnational 
organized crime convention. This will be an international 
instrument of cooperation.
    As my principal deputy, Anita Botti testified at your June 
Helsinki Commission hearing, the OSCE is proving to be an 
excellent forum in which to address trafficking. Your 
leadership has helped to put this issue high on the OSCE 
agenda.
    In many countries, we are using law enforcement training 
to, among other things, protect victims. I present to you today 
training manuals and brochures that have been developed by the 
Department of State. There are other brochures as well and 
manuals that have been developed by the Department of Justice.
    Mr. Chairman, the issue of trafficking first came to my 
attention through the advocacy of NGO's in the United States 
and overseas NGO's, who have been strong advocates. They have 
courageously convened forums and produced moving documentaries 
to tell the stories. At the Vital Voices, Women in Democracy 
Conference in Vienna in July 1997, we met networks of NGO's 
working under very difficult circumstances in the former Soviet 
Union and here in the United States. We heard from Ukrainian 
grandmothers who told us in tears of their anguish when young 
women from their villages were tricked into trafficking 
schemes.
    I would like to affirm our intention to continue a close 
partnership with NGO's as we move forward. Our partnership with 
the NGO community over the past 2 years has been open and 
transparent. We conduct quarterly briefings at the State 
Department on a range of issues, including trafficking.
    My colleague Harold Koh has discussed our views on 
trafficking in detail. I would like to add that the 
Administration is looking forward to working with Congress to 
put a piece of legislation that will institutionalize all of 
our work in place.
    We have aggressively led the U.S. Government response in 
combating trafficking and protecting its victims. Mr. Chairman, 
we want to work with you and Members of the Committee to do 
more. We must get the world's attention to achieve a global 
consensus as we head into the 21st century that trafficking, 
modern-day slavery, is unacceptable.
    Thank you.
    Mr. Smith. Thank you very much, Ms. Loar, for your 
excellent statement and for the good work you do on behalf of 
those who are abused in this fashion. I look forward to working 
with you and Secretary Koh and others within the Administration 
and my friends on this panel.
    Mr. Smith. Just a few opening questions, and then I will 
yield to my colleagues for any questions they may have.
    If we look at the issue as Secretary Koh or you pointed 
out, prevention, prosecution, protection, using that as a 
backdrop as we ought to, are we truly preventing, are we truly 
prosecuting to the greatest extent possible? Are we providing 
protection for the victims?
    When you look at the competing bills that are on the table, 
it would seem to me that even a cursory look, but certainly a 
more detailed look, would suggest that we are not doing all 
that we can, and, just when you come to the sanctions that are 
contained in the bills--and I would ask you if you could on the 
record or perhaps get back to us, indicate whether or not the 
Administration would support the life imprisonment that we are 
seeking in this. U.S. Attorneys, as we all know, all have 
prosecutorial discretion, and they get to pick, to a very large 
extent, based on their mix of what they feel ought to be done 
in their area, of course looking for advice and guidance from 
headquarters, so to speak, as to what they ought to be really 
focusing on.
    We certainly made drugs in this Nation a high priority, and 
some of the results, particularly in terms of interdiction, are 
very promising, but it is an ongoing problem. As you pointed 
out, Ms. Loar, it is No. 3. I have heard No. 2. But wherever it 
is, it is really high up in terms of the high profits, low 
risks about which you spoke of.
    If the Russian or the Ukrainian or any other Mafia and 
their counterparts here in the U.S. feel that they are facing a 
potential slap on the wrist that someone who is deceived into 
getting into a sweatshop situation, which are horrific--and we 
have had hearings here, we have had four on the whole issue of 
child labor and the abuse. I have had five bills myself that I 
have introduced, one of which passed the House. Regrettably it 
did not make it over on the Senate side. We have worked to beef 
up the ILO contributions. So I really believe that is an area 
for an all-out assault to try to mitigate that problem, if not 
eliminate it.
    But when you get to this tidal wave--we are facing a 
hurricane right now, and people are getting ready for a 
difficult situation. We have a tidal wave that probably could 
not have been anticipated by anyone in Russia or the Ukraine 
especially where these Mafiosos have stepped in through 
intimidation, through high profits, and they are just 
exploiting the daylights out of these young girls and boys and 
young women, and it calls for an extraordinary response.
    When we start getting convictions in my area, in your old 
area, New York city, metropolitan New Jersey, Philadelphia and 
all of the major centers for this exploitation, we will then 
begin to say crime doesn't pay. If we go with the Wellstone 
bill and Slaughter bill, and we are talking about a maximum of 
10 years, they will look askance when they say this is not a 
priority with the U.S. Government or with the Congress, which 
is why I think our central core of this legislation is that we 
have got to throw the book at them.
    I would hope that if you would, if you could relay whether 
or not you would support--as you know we have a tier each with 
fraud or deception, but also with girls under the age of 14, it 
is assumed that those who commit crimes against those women and 
force them to be raped each and every day, they get life 
imprisonment or up to life imprisonment, and for those 14, 18 
they could get up to 15 years.
    So you know, we do recognize for anyone, if there is a 13-
year-old being--and as I think you said, Secretary Koh--they 
are increasingly being used because they might not have 
sexually transmitted diseases or AIDS. So they are of a higher 
premium. All the more reason why our response has to be all the 
more severe in terms of certain punishment.
    When we start putting these people away, I think we are 
going to put a real dent in these operations, and hopefully as 
we saw, and Tom Tancredo helped out on this big time when we 
were in St. Petersburg, hopefully we will also see the other 
Western powers who are the destination points for these abused 
women, children, they too will pick up the gauntlet and really 
run with it and the baton.
    Let me conclude and yield to you for an answer, that unless 
we punish sex traffickers more than just a labor law violation, 
we will not stop this. Again, this is no cast on the Clinton 
Administration or any previous one. This is something that, 
again, I don't think anyone could have anticipated. All of us 
had extremely high hopes for Russia which have not been 
realized and probably will not be realized in the foreseeable 
future. So extraordinary crimes call for extraordinary 
responses.
    One final footnote. What got me the most, and I think got 
all of us, and John Shadduck and others, Secretary Koh, your 
predecessor, the most about the killing and the ethnic 
cleansing in Bosnia was, one, the mass murders, but also the 
use of rape as a means of statecraft, of trying to demoralize 
the ethnic Bosnians, the orthodox--the Muslims, I should say, 
by raping and destroying. Here we have it being done for 
profit, and, when we were in--and Tom heard the lady from 
MiraMed, Dr. Engel, tell us that the average woman now 
fetches--and I hate that word, but that is the word that was 
used--$24,000 in this process to get into an exploitation and 
rape in a brothel against her will, $24,000, and that is just 
the beginning, and then she becomes a money marker for these 
bums as time goes on.
    Life imprisonment, does the Administration support that? 
Can you support it?
    Ms. Loar. Mr. Chairman, let me say that we agree with you 
that the bad guys are way ahead of this, way ahead of us 
because the profits are so enormous, and we agree that 
penalties must be strengthened to reflect the severity of the 
crime. This is part of our Administration review of proposals 
on the best way to address this. I can't give you a definitive 
answer now, but this is under review.
    Mr. Smith. I do hope, because then the U.S. attorneys in 
any subsequent Administration will have their marching orders, 
and they also will self-select and will pick out those cases 
and go after these people. It should not be left to the whim or 
caprice of the U.S. Attorney who says, we are going to get 2 
years out of this. Life is for drugs, why don't we do it?
    Mr. Koh. Mr. Chairman, if I could address the underlying 
thrust of the question, I think there are many other points 
that you made just now both about the nature and the scope of 
the problem with which we obviously agree. I think that we in 
the Administration have been working hard on an approach that 
combines reporting, prevention, prosecution, and protection. 
The big issue, should, from our perspective, is not whether 
private traffickers get stiff sentences, which, of course, we 
think they should. We think you should treat them as they are, 
as criminals. Nor do we deny that this needs to be publicized 
and the facts need to be gotten out. Also, we do believe that 
protection for those who have been the victims, particularly by 
the granting of special visas, is an appropriate way to begin 
to address the protection problem.
    The question, though, as Representative McKinney has 
pointed out, is to what extent ought the problem can be 
addressed, by a new layer to a bureaucracy that is already 
fragmented on the issue of human rights, very strapped with 
regard to the work that it is already doing and with the use of 
a mandatory sanctions regime. With regard to governments, 
governments may not be the core factor or only one of many 
factors in this complex problem. Many of them are working in a 
cooperative effort to try to address the problem through 
developing an emerging international regime.
    Those are the issues on which we express hesitation. 
Although we are well aware that the International Religious 
Freedom Act combined elements, as I tried to define and set 
forth in our testimony, what may be an appropriate solution in 
one area may not be an appropriate solution for a different 
kind of problem.
    Mr. Smith. Let me just ask you, Secretary Koh, you 
mentioned being strapped. We are trying to beef up the number 
of people, personnel that would be deployed or designated to 
work under your bureau. I do think if it is a matter of 
personnel, we need to be upping the ante in terms of more 
people so that this issue could be prosecuted more effectively 
to help those women.
    In terms of the ``mandatory sanctions'', I think it should 
be underscored in the record that there is a very generous 
waiver. This could be more closely compared to the 
International Narcotics Control Act of 1986, which may be a 
very difficult pill for the Administration to swallow each 
year, particularly vis-a-vis Mexico, but it does at least get 
the attention of the governments in question. Since it would 
apply to every government, those that are transiting countries 
as well as those that are originating countries would all be 
looked at under the same microscope. So in terms of just moving 
operations, it is less likely if all countries are being looked 
at in the same way, especially when we are in ascendancy mode 
with regard to the seriousness of this issue. It is bad and 
getting worse, rather than the other way around. I think it 
calls for extraordinary responses.
    You did mention it often, the idea that these sanctions are 
mandatory. There is also this very generous national interest 
waiver, and we are trying to provide several arrows in the 
quiver of the Clinton Administration and any subsequent 
Administration, to say the U.S. Government is so serious about 
this that when it comes to nonhumanitarian aid, we want your 
attention. What are you doing? These are your daughters.
    When I was in Russia, I met and talked to the Duma speaker 
and to the Ukrainians and others. They were in denial that this 
is even happening in their own countries. I said, these are 
your daughters, these are people that you should be putting 
sandbags around, to protect them. They just dismissed it as, 
``Not here, certainly not to the extent that you are talking 
about.''
    So either there is complicity, or there is denial occurring 
there, and one good way to get their attention is to say here 
are some more arrows in your quiver, Mr. President there is an 
escape hatch. You have all these things on the table. You can 
decide to use them or not in order to get an effective outcome.
    Mr. Koh. Mr. Chairman, I think my point with regard to our 
human rights policy, is--and I have made this from the first 
time I appeared before this Committee in January after the 
U.S.-China human rights dialogue--we adopt an inside-outside 
approach, which means we use all of the tools available, both 
diplomatic persuasion and various forms of external pressure, 
to try to bring about improvement in human rights conditions. 
So certainly sanctions are part of that package of tools.
    What we are saying here is we have those arrows in our 
quiver already. Our need here is not so much for additional 
arrows that on the one hand would be made mandatory and then 
waived in a process that would consume a lot of bureaucratic 
energy. Our need is for greater capacity for our existing 
mechanisms which are seizing the problem and focused on the 
issue. We are eager to work on it. One of the worst-case 
scenarios we could envision would be a whole new set of 
mandates unaccompanied by the resources. Then we would have a 
situation in which we are doing all of our work less well 
rather than bringing the kind of targeted approach to bear that 
we know that we all want.
    Ms. Loar. Mr. Chairman, if I might take a look at the 
sanctions issue from my personal experience in raising this 
with other governments and the experience of my boss Secretary 
Albright. I think we have created an environment where 
countries are willing to come forward and ask for help. I have 
seen this in a number of countries where they clearly have this 
problem. They are ashamed of it, and they are willing to 
acknowledge it, and this has started some of the relationships 
we have that involves very in-depth programs of economic 
alternatives and training for the border police, fraud 
training, and anticorruption training. What I have seen in 
other experiences on other issues is that when a sanction 
regime is in place, countries clam up. They do not want to work 
together. They are afraid of being accused of something, and I 
have seen that with Secretary Albright raising this, offering 
help in a way that treats the countries as if they want the 
help, and then they do.
    We have really made some progress on this. We obviously 
have much more to go, much further to go, but it is more than 
the issue of personnel. I think we also want resources to 
address this. We have asked for 30 million more in INL training 
for narcotics and law enforcement. We are looking at a number 
of prevention programs. Our concern is that a sanctions climate 
will back-pedal, take us away from the environment where we can 
raise this in OSEAN meetings and OECD meetings and OSCE 
meetings. The model you are working toward and that you put in 
in OSCE is one that encourages cooperation. The people have to 
open up for it and have to say they want it, and I think we 
have that climate. If we have been working on this for 10 
years, then let us take a look to see if sanctions are 
necessary, but at this point it is too new, and it is too 
involving, I think, to lay these on at this point.
    Mr. Smith. Gary Haugen is going to be testifying, the 
president of the International Justice Mission, and I would 
just like to read one paragraph from his testimony and ask you 
to respond. He points out on page 4, ``As it turns out U.S. 
Policy toward a country could have a powerful effect upon the 
priorities of a Nation's most senior authorities, the 
authorities who sit on top of local law enforcement's chains of 
command. Here it must be observed that these public officials 
will move an issue from the good idea column into the urgent 
priority column only when they think something bad will happen 
if they don't. This is why senior government authorities may be 
pushed to the point of making forced prostitution an urgent 
priority through a sense that something bad is going to happen 
in their relationship with the U.S. Government if they don't.''
    Again, carrots and sticks.
    He has certainly done yeoman's work on this issue, as you 
well know. Look at President Habibie. I mean, it was a 
nonstarter that the international peacekeepers would be 
allowed, but when government-to-government, military-to-
military was not just threatened but was cutoff or suspended, 
it certainly got Wiranto's and everyone's attention in the 
chain of command.
    We are talking about tools. They don't have to be used, but 
they are there to be used, and there is enough warning, enough 
of a shot across the bow that they are there that you are less 
likely to use them, I would submit, and I take your point. I am 
a great believer in cooperation, in trying to persuade, but I 
can tell you both our personnel in St. Petersburg talked about 
how they had met with brick walls when raising this issue with 
the Russians, and the Russians themselves that we met with, 
Duma members, including the speaker, were in denial or 
something worse when I raised it with them and when members of 
our delegation raised it, and the Ukrainians laughed. One of 
their delegation heads laughed and said, ``prostitutes,'' as if 
to say ``who cares about them.'' Even if they are it in 
voluntarily, we should care about it, but when it is forced, 
and we are talking about rape now, I think it ought to be at 
the highest priority. I yield.
    Mr. Koh. Congressman, the question is what is the best 
approach given the resources we have. Here, obviously, our 
overriding request is for full funding of the Department's 
budget so that we can address these questions and give them and 
other human rights issues the attention they deserve. We are 
convinced that a trickle down approach which imposes sanctions 
at the top that eventually works down to local officials which 
then may or may not impact on the incentives of private 
traffickers who are moving their operations across borders is 
not necessary the best way to go. It may well be, and our view 
is that these sanctions are available. The information is 
available. The tools that you are proposing to give us we 
believe that we already have, and the question is how do we 
mobilize those resources best to approach the problem.
    Our concern, and I think it is one that Representative 
McKinney noted, is that the bureaucratic apparatus may end up 
blunting the effectiveness of our approach, particularly when 
we are searching for cooperation among countries who are 
serving as transit, receiving or source countries. Does 
unilateral sanctions being imposed against any of those 
actually promote the cooperation we are trying to develop?
    Mr. Smith. I thank you.
    Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. You can correct me 
if I am wrong on this, but it seems interesting to me that the 
Assistant Secretary in his testimony talks about not having 
sufficient capacity to absorb the additional requirements of 
this language, but if I can recall correctly, we boosted funds 
for the Bureauin the American Embassy Security Act, and the 
State Department fought us each step of the way. So now my 
conclusion at that time was that the area of jurisdiction of 
Assistant Secretary Koh was just not important to this 
particular State Department. Now, without this legislation, how 
can we be assured that this issue and issues of democracy, 
human rights and labor issues in general will be an important 
consideration in the formulation of U.S. foreign policy?
    Mr. Koh. Representative McKinney, if I had drawn that 
conclusion, I wouldn't be in this job anymore. My view is that 
these are critical issues that are critically important to the 
Secretary who has expressed her commitment both on human rights 
issues centrally and on trafficking issues.
    I think you put it well when you said in your opening 
remarks that this is an issue which involves human rights, 
democracy and labor, and it ought to be addressed in the 
context of all of those issues.
    The question is raised by your inquiry is to what extent 
can those parts of the U.S. Government that already have a 
mandate, focus and an interest in the issue bring that energy 
to bear in the way that we all like? Is creating yet another 
office, another layer of bureaucracy, the best way to approach 
the question? Is that going to give the kind of energy on the 
issue that we are all looking for? Our view is that an approach 
that emphasizes protection, prevention and prosecution, that 
expands reporting and gives greater support to existing 
resources and institutions is a better way to go.
    Ms. McKinney. It just seems interesting to me that the 
State Department could fight us giving you more money, and then 
you come here and say that you don't have enough to meet these 
additional responsibilities. It just seems that there is a 
disconnect there, and I cannot understand for the life of me 
why this State Department would fight giving more money to your 
bureau, which is doing very important work consistent with the 
values of the American people.
    I believe that takes us directly to Ms. Loar's testimony 
where she has indicated that there has been a lot of meetings 
going on. I would like to know what the result of these 
meetings has been in tangible proof that our legislative 
approach is incorrect.
    Ms. Loar. The meetings that have gone on, Congresswoman 
McKinney, have really taken a look at how we work with other 
governments, which I think was something you suggested we take 
a look at, how we work in the international areas, how do we 
work in our own government, and we have had some great 
successes. Successes mean that governments are willing to take 
this on; it means they are willing to work with us.
    I use the example of the Government of Ukraine because it 
is an area where so many young women are being tricked into 
trafficking schemes and are being lured into leaving their 
countries because of the economic situation there. Through a 
series of interventions--you could call them meetings, but when 
Secretary Albright sits down with the head of a government, 
they are really very important meetings. When Secretary 
Albright raised it with the Government of Ukraine, with Mr. 
Kuchma, within a couple of days we had the Ambassador from 
Ukraine in my office, we had our embassy in Ukraine working 
with the Foreign Ministry. We have seen legislation passed.
    In some countries we have much stronger protection against 
victims. For example, we have seen this in Italy where the 
Italian government is way ahead of us and has protections for 
victims that we don't have. When Secretary Albright raised that 
at a meeting that she had, within weeks we had visits from the 
Italians sharing with us what they are doing on victims. We are 
planning in the next few weeks to send over a group of American 
NGO's, and if there are NGO's you would like us to consider to 
part of this group, we would welcome that, and I extend that to 
the Chairman as well. We are sending over American NGO's to 
Italy to learn how we can as a government provide better 
protection for victims.
    We are working with the Government of Italy. Another thing 
that came out of a meeting we had, first Secretary Albright's 
meetings and the rest of us who pick up her ideas and carry 
them forward, with the government of Italy was to work with the 
Italian government on trafficking out of Nigeria. The Italian 
government is very concerned about the number of Nigerian women 
and girls, particularly young girls, who find their way through 
terrible means into Italy. They are very concerned about that. 
They want to stop it at the source. So our embassy in Nigeria 
is working with the Italian Embassy in Nigeria to offer an 
information campaign to warn off young women.
    That is what we are doing with countries overseas. We have 
had meetings throughout our government for the purposes of 
getting our government to strengthen what we are doing. Our 
Justice Department is an enormous place, almost as big as the 
State Department, and the Justice Department in the areas of 
the criminal area, in the Violence Against Women's office and 
the Victim's Protection Office, they are all working on this 
issue with us. That is the way things work, and I do think that 
by raising the issue, by having our Secretary of State bring it 
up in important meetings around the world, we have seen some 
results, and there is a lot more we want to do.
    Ms. McKinney. Thank you.
    Ms. Loar. May I also make a comment, Mr. Chairman, about 
Congresswoman McKinney's earlier concern about resources and 
how we get this job done. I think our Secretary of State has an 
effective mechanism in place. We can never be satisfied with 
the work that has been done, but in the two positions that 
exist at the State Department--and we have a number of bureaus 
who are represented here and who are not here working on this, 
to really bring the government along. My position as senior 
coordinator for international women's issues was created by 
Congress to promote women's human rights in foreign policy. 
That is a permanent position that allows me to work within the 
State Department. The Interagency Council is a task force that 
gives me authority throughout the government. So I don't think 
it is a mechanism that if we haven't seen all the results we 
want, I don't think it is for lack of a good mechanism within 
our government. I think the bad guys are moving at a very fast 
pace, and that is what we are trying to catch up with.
    Mr. Smith. Thank you, and thank you, Ms. McKinney.
    Before yielding, we tried to double the amount of money. As 
a matter of fact, our--both yours and mine, as chief cosponsor 
and principal sponsor--bill is currently in conference. We 
would provide $15 million earmarked for Secretary Koh's bureau, 
which is a doubling of what resources are there this fiscal 
year, but still, it is only one-half of a percent of the total 
State Department budget. So we are trying to provide sufficient 
resources to you, and wherever the glitch is, whether it be OMB 
or somewhere else, it is not here. In this legislation we 
provide $1 million authorization for doing just this very 
issue. So we are trying to match resources and authorize 
sufficient resources.
    Ms. McKinney. Mr. Chairman, if you would yield. If I 
remember correctly, the State Department incredibly came to me 
and said that they would have a problem absorbing that much 
money.
    Mr. Smith. And they are still opposing it in conference.
    Ms. McKinney. It is absolutely ridiculous the position that 
the State Department has.
    Mr. Koh. Representative McKinney, The State Department's 
position is that we would like our budget to be fully funded. 
That is the position the President took before the VFW. It is a 
major issue with regard to the conduct of our foreign policy. 
We are a country which is involved around the world on almost 
every conceivable issue. We are at this point an indispensable 
super power. The support that we all need from the Legislative 
Branche is to recognize the importance of foreign policy, as 
this Committee does, and to try to support the bureaucracies we 
have and help them to be as effective as possible in addressing 
we can across our legislative mandate.
    Mr. Smith. It is also a question, if the gentlelady would 
yield, of allocation, and we do believe human rights is an 
allocation that should be second to none.
    I would like to yield to Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Ms. Loar, apparently from your discussion, Italy is a 
country that we would not have to apply sanctions against if, 
in fact--even operating under the legislation that the Chairman 
has offered. Apparently, the kind of situation that exists 
there in terms of the government's willingness to cooperate 
would certainly suggest that that they would not be a 
candidate, Italy would not be a candidate. However, there are a 
number of other countries, of course, that are not looking at 
this issue in the same way and a number of other nations where 
I believe there is complicity on the part of the government 
itself and the traffickers, because of the, first of all, great 
amount of money that can be and is made in this particular 
activity.
    I would ask you to be very specific and tell me what would 
you do to stop the trafficking from Russia, I should say, and/
or the Ukraine. But let us just focus on Russia for the time 
being. Evidently since you say you had the opportunity to apply 
sanctions, you have chosen not to pursue that route, and from 
listening to what you said in terms of the way in which you 
would deal with this issue sans sanctions, I must admit to you 
I don't understand how that would possibly work in a country 
where almost every level of the government is actually 
participating in this, either directly, frankly, or indirectly, 
by suggesting that it is really not much of an issue, it is 
sort of a cultural thing, and no big deal.
    When you suggest that you need 10 years to see whether your 
plan works, I would tell you that I am absolutely unwilling to 
wait that long to determine the effectiveness of an operation 
that has heretofore been fairly ineffective, especially when 
you think about the phenomenon that we were told about, and 
only told about, I did not observe this, of people who run 
orphanages in Russia who are paid something like $12,000 and at 
that point turn over to these traffickers children. They are 
told they are going on a field trip, to McDonald's or 
something, and a bus comes and picks them up. You expect me to 
live with that thought for 10 years while we apply this other 
way of handling it. I must tell you, ma'am, it just doesn't 
wash with me.
    What would you do specifically to get Russia to turn around 
tomorrow?
    Ms. Loar. Mr. Congressman, obviously 10 years was something 
off the top of my head. I don't think any of us in this room 
should sit by and watch this increased phenomenon of 
trafficking continue, and we are not going to.
    Now a couple of things I would like with the Committee 
related to what we are doing with Russia. Russia is in many 
ways a very big, complex, and from a U.S. foreign policy point 
of view, a sometimes frustrating country. We have, however, 
made some progress through a program with the ABA, lawyers 
working in Russia. There is legislation on trafficking that is 
ready to be introduced by support of members of the Duma, 
obviously not the people you met with when you were there. We 
would welcome the opportunity when they are here in the United 
States on their next visit to give you a chance to tell them of 
your support. We through our embassy do that, but we would like 
to do that with our Members of Congress as well, to let them 
know there are Americans who are watching this carefully, and 
those of you who are stepping forward and being courageous, we 
are going to support you.
    Now, we know that legislation is the first step. This is 
one of the reasons we are here in this room today. The 
implementation will be very important. We have as well through 
the U.N. worked the protocol that I mentioned, which is part of 
the Transnational Crime Convention, which will be an 
international instrument of cooperation, which is a very 
important part of it, especially when you are looking at a 
country like Russia, the Russians themselves. This is a 
completely different ministry and completely different part of 
the government than the Duma members who are looking at this 
legislation and ready to sponsor it. They cosponsored this 
resolution at the U.N. asking for the protocol.
    There were some who wanted to lump together trafficking and 
smuggling and various other issues, but the Russian members of 
this U.N. delegation asked that they could cosponsor this 
resolution, and we have seen a willingness on different parts 
of the Russian Government to work on it.
    It clearly is not enough, and it is something we need to do 
more on, and we would welcome a way of doing that. We don't 
think sanctions are the way to do that at this point. We have 
worked with, through our information agency and through other 
exchanges--we have bought to the U.S. judges and prosecutors 
and nongovernment organizations all devoted to addressing 
trafficking. We brought them to the United States. We have sent 
people over to help them prosecute cases there. There are a lot 
of different layers and in different parts of the government, 
the judicial, the executive branch and the legislative branch, 
but it is clearly not enough, and we don't want to wait 10 
years to see some results. We want to move it on a much faster 
pace.
    Mr. Tancredo. I appreciate that, and I certainly hope that 
that is the case. In a way it is a little difficult to also 
understand your opposition to the sanctions aspect of the 
legislation when, as has been stated here several times, there 
is nothing mandatory about it. The President would be given the 
opportunity to provide waivers, and I don't assume for a moment 
that just because we would pass such legislation he would 
choose to begin adopting a provision that he thinks or you 
think he already has, that is the ability to apply sanctions, 
but it would certainly hopefully indicate the strong position 
of the Congress of the United States if we were to have that 
aspect as part of the bill.
    It again goes back to the problem, I guess, that I raised 
with Russia, and that is that even taking for granted that 
there are members of the Duma who support the approach that you 
have outlined, when the country is as fractured as this one is, 
and I mean, it is hard to even describe a legislative branch or 
a judicial branch, especially, in a country like Russia, it 
just doesn't give me any feeling of security that they would be 
able to implement something as a result of the actions taken by 
the small number of members of the Duma that might look good 
for the public consumption but internally does nothing, 
especially when there are so many people on the take. It just 
seems like a more serious approach needs to be undertaken, but 
I sincerely appreciate our observations. Thank you.
    Mr. Koh. Congressman, our overall approach on human rights 
has been designed to use a combination of internal mechanisms 
of persuasion coupled with external mechanisms of pressure, 
along with international standards, to try to bring about 
internal change that can lead to concrete means of addressing 
these problems within the countries that we deal with. The 
larger, more powerful countries are the ones on whom our 
sanctions have the least impact just because they are much 
stronger and bigger.
    The example of Ukraine which you have talked about is one 
in which we are seeing some real results on this issue. The 
President has developed an intergovernmental response to 
address the issue with the Government of the Ukraine. The issue 
has been added to the Gore-Kuchma enforcement working group. It 
has been a subject of direct discussions between our Embassy 
and the Ministry of the Interior. USAID has worked with the 
Government of the Ukraine on anti-trafficking issuues. USIA has 
developed a whole series of programs with the Ukraine, and what 
this has led to is that the Ukraine Government has passed 
further legislation with regard to domestic criminalization of 
sexual exploitation. In February Ukraine announced a draft 
national plan that involved 20 Ministries and local 
governments, international organizations, donors and local and 
foreign NGO's.
    We are pursuing these kinds of initiatives with a whole 
range of countries, as we have discussed, and I think in the 
end it is a critical part of our overall human rights strategy. 
It means using external standards to lead to internal change 
that might lead to meaningful attack on the problem by those 
countries that are either source countries, recipient countries 
or transit countries.
    Mr. Smith. Thank you, Mr. Tancredo.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. I appreciate hearing from 
you both with regard to the Administration's initiatives and 
strategies with regard to what you are doing now, but it seems 
to me that the heat needs to be turned up. I want to ask you a 
couple of questions.
    First of all, how long has this country really known about 
sex trafficking? Second, since this is a commercial activity, 
do we have estimates of how much revenue these atrocities bring 
in? I mean, is this a multimillion-dollar industry? Is it a 
multibillion-dollar industry?
    Finally, let me just ask you about this whole certification 
issue, because drug certification has been an effective tool in 
cracking down on drug trafficking in some parts of the world, 
and I guess I am wondering shouldn't we be as tough on those 
private sector individuals and those governments who condone 
these abuses and exploitation of women and children as we are 
on the whole drug trafficking issue?
    Ms. Loar. Congresswoman Lee, it is an incredibly lucrative 
crimal activity. It is one of the things that through our new 
and very effective information-gathering resources available to 
the government, we have been able to take a look at it. We 
estimate it as billions of dollars in profit, which is why it 
is such a tough thing to tackle, I am afraid.
    As to how long our government knew about this, I was 
appointed to this job in July 1996, and I was invited to a 
meeting in Moscow that--this is one of the fora I mentioned 
took such courage to put together--where I was invited. Our 
embassy had really pushed me to come out there. They wanted me 
to meet with some Members, including some Members of the 
government who were very low-key about their interest and their 
willingness to look at this, but at some NGO's, some groups 
from throughout the former Soviet Union, and that was in the 
fall.
    I mentioned the Vital Voices, Women in Democracy Conference 
in July 1997 in Austria where we had women leaders from Russia 
and Ukraine and where we saw for the first time real networks 
emerging in that part of the world, networks with people who 
are working and NGO's in protection areas in Ukraine and 
Russia. I don't think the enormity of it hit us until we heard 
more and more from NGO groups in our meetings around the world, 
and we have seen this in U.N. meetings.
    I would say that our desire to take this on and to really 
get the full force of our government on this came out of our 
meetings with victims and hearing from people whose villages 
were wiped out because girls were being sold away.
    Ms. Lee. It sounds like we have just had our head in the 
sand on this.
    Ms. Loar. I will tell you, what we have seen is a big 
increase after the fall of the former Soviet Union. It is 
something I think we were all aware of and has been documented 
in South Asia and Southeast Asia. I think it hit home when the 
numbers coming into the United States really increased in the 
last few years and when we saw more visible areas of criminal 
activity in the former Soviet Union.
    Ms. Lee. Mr. Chairman, may I ask one more question, please?
    Let me ask you then, we have heard Nigeria, Italy, and the 
Soviet Union. What are, say, the top eight countries, the top 
source, transit and receiving countries as you see them?
    Ms. Loar. Russia and Ukraine are certainly the top source 
countries, countries of origin from the former Soviet Union. I 
can't name the eight or in any particular order, but in South 
Asia a country that that one of your witnesses is from today is 
one of the key source countries as well, Nepal, as well as 
Pakistan. In Southeast Asia, the areas of Burma and Thailand 
are also sending countries. I think if you take a look at 
situations where there is economic desperation and deprivation, 
that is where you see families who are desperate, and families 
who can't keep their girls in school, and families looking to 
send their children overseas or young women looking to go 
overseas to work.
    Ms. Lee. Maybe we ought to look at some conditions on IMF 
funding.
    Mr. Koh. Congresswoman, if I may chime in, I think as 
Chairman Smith pointed out in his statement before the OSCE in 
July, a lot of the problem was exacerbated by the collapse of 
the Soviet Union. Our bureau, the Bureau of Democracy, Human 
Rights and Labor, started to report on trafficking as a 
distinctive human rights phenomenon in 1993.
    You asked a good question about the relationship between 
this and narco-trafficking. We use a certification process for 
drugs, and so why not on this as a way of turning up the heat. 
I think the answer is simple, which is that what we are talking 
about here is a regime of prevention and prosecution, but more 
fundamentally the protection of individuals who are being 
trafficked.
    In the drug context you have drugs which are growing in 
stationary places. They are not themselves being moved, and we 
are not trying to provide them with any kinds of protection. 
But the key to what we are trying to do with regard to 
trafficking of human beings is to develop a protection regime, 
and particularly in situations in which people are traveling 
across borders and often through a variety of means, which 
include fraud, et cetera. It is not as simple as knowing that 
you are buying drugs and that is illegal.
    What is happening here is a combination of incentives, 
tricks, frauds, coercion. For that reason, as we have 
suggested, religious freedom requires a certain kind of 
regulatory regime. The drug process has had its own 
certification process which has evolved over a period of 20 
years. We think that the fight against trafficking should move 
toward an international protocol and an international regime. 
It deserves its own distinctive set of tools, which is what we 
are already doing in the Administration approach to the 
problem.
    Ms. Loar. If I might just add, Congresswoman Lee, just 
going further on the point that I made earlier as to how we 
started looking at this. Women's human rights were not always 
in the mainstream of U.S. foreign policy, and I don't think the 
issue of trafficking--as it emerged, it came out of a time when 
we did have leadership to take a look at this and did have 
leadership of Secretary Albright to figure out how it should be 
done. So it is not a long-standing issue at this level and 
growing at this pace, but it has come up at a time when we do 
have the leadership to address it.
    Mr. Smith. Ms. Lee, thank you very much.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly want 
to thank both the members of the panel for their very 
comprehensive statements this afternoon.
    I would like to compliment Secretary Koh for being very 
diplomatic. I was going through your statement, but you did not 
leave that one final statement to the effect of the 
Administration does not support H.R. 1356. Am I correct on 
this, Secretary Koh?
    Mr. Koh. Sorry, I didn't hear you. I left it out of the 
statement, or I left it out of what?
    Mr. Faleomavaega. You were very nice about saying about you 
have all the different institutional means to take care of 
whatever problems that come about, especially as it relates to 
sex trafficking, but I was hoping perhaps that you could be 
more specific and say what exactly is the Administration's 
position on H.R. 1356, which is the Chairman's bill, which I 
cosponsor, in addressing this very specific issue, and I was 
wondering, has the Administration submitted an official 
response to the bill?
    Mr. Koh. There are pieces of the bill, as I said, which 
provide valuable additions to working on the problem, and other 
parts that we think are either redundant of what exists or in 
some way counterproductive. As we frequently do, when the 
Administration approaches and various congressional approaches 
all address the same issue We see it as an important 
opportunity to get together with Congress, and try to work out 
issues on agreed-upon principles.
    There are a variety of legislative proposals on the table, 
and as you well know, the process of legislation is one which 
means drawing from them to achieve what we think is the best 
result to address the problem that we all agree ought to be 
addressed.
    Mr. Faleomavaega. Mr. Secretary, I thank you very much. Now 
I have a much clearer picture that we will be working together, 
because the concern that I have, and as I was asking my good 
friend, legislative counsel here, do we have currently any U.S. 
laws in the books that address this very issue of sex 
trafficking? If we do, my question is, is it strong enough, is 
it too weak, do we need to beef it up a little bit?
    Ms. Loar. There are a number of laws on the books that 
handle different parts of trafficking. There isn't anything 
that we think is comprehensive enough or strong enough across 
the board to address this. It wasn't a long-standing issue here 
in the United States. It wasn't a long-standing issue to the 
degree that it is now internationally. So we do not think there 
are significant enough pieces of legislation and laws that 
address this.
    Mr. Faleomavaega. I noticed in your statement, Ms. Loar, 
that at minimal, that nearly or well over 1 million women and 
children are affected by sex trafficking. Out of this, 50,000 
of those women and children are affected here in the United 
States. In doing so, what does this give you? It gives me the 
impression that 950,000 women and children out in the world, we 
have got some very serious problems with foreign countries. 
Apparently, we are dealing with 50,000 that come to our 
country, but what are we going to do with the 950,000 women and 
children that are being affected in other countries of the 
world?
    I think this is the reason why we raised the question of 
sanctions. I duly understand and appreciate the fact that some 
of these countries don't have the resources, but if we don't be 
very aggressive on this very issue, then what do we do, just 
let the 950,000 go?
    Ms. Loar. We are overwhelmed by the number, and we do think 
it is a tragic number and a number that is increasing all the 
time. But what we are doing is to work with those countries 
that are the countries of source, the countries of origin, the 
countries of transit, and in some cases, the countries come to 
us and ask for help. In other cases, our Secretary raises it 
because she sees an opening, she sees a willingness to take 
this on.
    There are a number of countries where there this is a long-
standing issue, but they have never had the modern tools of 
technology, the Internet and open borders to facilitate this 
criminal activity. So in some cases it has really crept up on 
countries. They have not seen this coming, but when they do, in 
more cases than not, they want to work with us, and they want 
our help.
    The United Stated is not alone in caring about this issue 
and in responding as a government at the very high level. We 
have partners in this in the Nordic countries, in the European 
Union. Serious funding countries with significant overseas 
assistance programs have come forward to work with us on this, 
and we are going to continue to do that.
    Mr. Faleomavaega. I think the Chairman, as well as the 
gentlelady from Georgia, raised this issue previously. I get 
the strong impression from both of your testimonies that the 
Administration has the institutional means to do it, but at the 
same time sounds like you don't have the tools to do it with. 
You don't have the handles, you don't have the bullets, no 
triggers to pull or not enough resources. Am I getting a double 
signal here? Are you certain you have got the means to do the 
work? With all due respect, my personal admiration for 
Secretary Koh is going to be in this position, come next year 
or some other time, maybe we won't have another Secretary Koh 
that is as aggressive and knowledgable about human rights 
violation and issues. So where do we go from there? That is the 
reason why this proposed bill, I think, has a lot of merit, and 
I would certainly hope that our friends in the Administration 
would be supportive of this effort.
    Mr. Koh. Congresswoman, before I was a bureaucrat I was a 
professor focusing on issues of international law and issues of 
international regime-building, which is the area that is the 
solution to this problem. We have a transnational problem that 
has to be addressed by global cooperation, reinforced by 
treaties, protocols, national laws, changes of institutions, 
and by aggressive diplomacy, as well as aggressive advocacy. It 
is that process of building that global regime which is the 
process that we are trying to do now.
    Our position is that we need more resources to help us with 
the tools. The question is, does another layer of unilateral 
sanctions, mandatory or waiverable, which would be used against 
those who are trying to participate in the regime, serve as an 
additional tool that we should use?
    Mr. Faleomavaega. I know my time is running. Has the 
Administration taken any initiatives to call for an 
international convention of countries to agree on this very 
egregious--it is a multibillion-dollar industry. Has the 
Administration taken the initiative to do this very thing that 
you are talking about?
    Ms. Loar. Yes.
    Mr. Koh. There is a protocol.
    Mr. Faleomavaega. Where are we at with this protocol at 
this time?
    Mr. Koh. We are working on the process of negotiating it.
    Ms. Loar. I would second what Assistant Secretary Koh has 
said. The protocol is a very powerful instrument, and our chief 
negotiator is right here, Jim Puleo. He is dying to tell you 
the kind of progress that has been made on that. It is a forum. 
The U.N. Has taken this seriously. The United States is taking 
the lead on this, but we had a lot of partners on this.
    Mr. Faleomavaega. How long have we doing this protocol 
proposal?
    Ms. Loar. How long has it been in negotiation? In January 
of this year, the U.S. introduced it with Russia as cosponsor.
    Mr. Faleomavaega. So we just started this year then.
    Ms. Loar. Within this Transnational Crime Convention, which 
is a particular instrument to look at how to combat crime 
internationally, the U.S. has decided to take a look at 
trafficking separately, not to have it hidden within other 
areas or have it buried under some other area.
    Mr. Faleomavaega. I think my question is specific. The 
protocol is specifically of sex trafficking; am I correct?
    Ms. Loar. It is on trafficking in all its forms.
    Mr. Faleomavaega. Can we just look at sex trafficking just 
on its own, or do we have to put all other trafficking 
together?
    Ms. Loar. Our view is that it is very hard to separate one 
from the other.
    Mr. Faleomavaega. My problem is that once we put them all 
there together, then we find problems with priority. Then if 
you have got 10 different trafficking issues, where does sex 
trafficking come into focus, or does it focus at all?
    Ms. Loar. It does cover both. It does include that in it, 
Mr. Congressman.
    I would just say going back to your issue of resources, as 
the lead in the U.S. Government on this, I certainly would 
welcome more resources to the issue of trafficking, but I don't 
think that the fact that this issue hasn't been resolved around 
the world is from a lack of commitment from this 
Administration. We have seen the increase in this as we learn 
more about the issue and get more estimates from our community 
and the government to provide this kind of information to us. 
In 1995, we spent over $7 million around the world. Next year 
we are moving it up to 20 million out of our foreign assistance 
budget at the State Department. That doesn't count the work and 
the programs that come out of Department of Labor and the 
Department of Justice and other communities within the U.S. 
Government that spend very significant resources on this issue, 
but we haven't solved it, clearly.
    Mr. Faleomavaega. I note in your statement the three 
pillars of U.S. policy on sexual trafficking on the question of 
prevention, the question of prosecution and the question of 
protection. My question is, what is the current status of our 
laws that addresses these three specific issues domestically? 
Are our current laws strong enough to take care of these three 
areas?
    Ms. Loar. No, they are not.
    Mr. Faleomavaega. That is one question. The second question 
is--they are not? Thank you very much.
    The second question is, in terms of prevention, prosecution 
and protection, where is the Administration's position in terms 
of our external problems in dealing with those countries that 
either don't care at all, or if the proponents, they don't have 
the resources, that maybe we could help them, give them the 
resources?
    Ms. Loar. As far as our domestic legislation is strong 
enough, it is not, and that is why we have worked--our 
Department of Justice----.
    Mr. Faleomavaega. Could you please offer your 
recommendations on behalf of the Administration to our Chairman 
and see exactly how we can beef up our current laws so that we 
make sure that these 50,000 victims, women and children, are 
going to be addressed aggressively by our policymakers as well 
as our prosecutors? Then maybe the other 950,000 women and 
children, we will have to address that issue in some other way.
    Ms. Loar. We will continue do that.
    Mr. Faleomavaega. Thank you.
    Mr. Koh. Congressman, might I add that with regard to the 
question of whether the laws strong enough to protect the 
victims, that is where we favor visa relief for victims of 
trafficking. Are they strong enough with regard to punishing 
private traffickers, we agree that stiffer sanctions are 
appropriate.
    Where we are disagreeing is with regard to the question of 
whether a mandatory sanctions regime and a special office is 
the best way to go. There are good things in this bill, and 
there are things that are not so useful in terms of what we are 
trying to accomplish. We will submit comments for the record 
with regard to the revised draft protocol. A convention for the 
suppression of traffic in persons was entered into force in 
1951, but as the scale of the problem has gotten much worse in 
the 1990's, there has been a new international treaty-making 
effort. The last negotiating session was just concluded on July 
9, 1999. We will submit for the record both the text of that 
protocol and a description of how that process is moving.
    Mr. Faleomavaega. Appreciate that.
    [The information referred to appears in the appendix.]
    Mr. Faleomavaega. Mr. Chairman, I know my time is up, but I 
do appreciate some of the things that we have taken in our 
dialogue, and I really do look forward to working together with 
the Administration to resolve this. This isn't just 10 years. 
This problem has been ongoing for the last hundred years, and I 
think it is time we ought to take care of it. Thank you, Mr. 
Chairman.
    Mr. Smith. Mr. Hilliard.
    Mr. Hilliard. I have no questions.
    Mr. Smith. Thank you.
    Just to conclude, unless any other Members have some final 
questions, we could ask questions until the sun sets and still 
not be done, and we will submit a number for the record, but I 
do have a few follow-up questions I would just like to pose.
    I would like to focus on the area of providing protection 
for the women so they do not face immediate deportation, both 
for their own benefit to avoid going back to a retribution 
situation, and also so that they might then be available to 
become part of a prosecution or at least evidence gathering. 
The Wellstone bill, although it tries to parrot us on some of 
the things, we all know the genesis of it. We spread our bill 
around all over the Hill, and that bill came up pretty much as 
a weakened version of our bill. It would only provide a 3-month 
temporary residency type of deal for those women, and it would 
seem to me, just standing in their shoes for 1 second, that if 
I am just looking at a 3-month stay, and maybe it will be 
extended, maybe I can apply for asylum, maybe, I am going to be 
very hard-pressed to say, I am going to now cooperate. You 
already have a potential mistrust of authority figures to begin 
with. They may wonder, for example why New York City police are 
any different than the police in their own countries. They 
don't know who talk to who and where there might be collusion. 
So our bill would provide a more durable protection for those 
women where they could become permanent residents, and we would 
provide a mechanism for that.
    Again, we are erring on the side of protection, rather than 
being less than generous and skimping in what we provide for 
these women. They have already been through hell and back. Why 
not provide some safe haven?
    Can the Administration support our language, or does it 
have a recommendation that would perhaps be better? We would 
like to strengthen it further if you have a way of doing that. 
I would yield to either of our two distinguished witnesses.
    Mr. Koh. We prefer to submit comments on the bill as a 
whole, but I do think with regard to the protection regime, you 
make an extremely good point. The case that I worked on as a 
private attorney regarding the hearing-impaired Mexican workers 
who gave testimony against the people who had trafficked them 
ended up with them eventually getting immigration relief, but 
it was through a process of recommendation through the Justice 
Department prosecutorial forces that went over to the INS . It 
may well be that a scheme that relies on a legislative 
protection as well as what has been called the T visa is a more 
appropriate means to deal with that, as well as more fully 
elaborated means of protection. But the focus on protection is 
an important one that I think we strongly favor in all our 
approaches on the issue.
    Ms. Loar. Mr. Chairman, I have just confirmed that the 
Department of Justice does have its own language developing in 
areas of protection. It is one of the areas that they have 
stepped forward on. They are working on that.
    Mr. Smith. I hope they can provide that.
    Ms. Loar. We will provide information on that.
    Mr. Smith. As soon as possible if that can done. Maybe this 
would be for the record, but we need to know to make an 
informed decision and also to persuade our Members, House and 
Senate, as to why this cries out for reform. The number of 
prosecutions, what kind of prison sentences the international 
pimps are getting, if there is any kind of guidance that has 
been provided to the U.S. attorneys in terms of how prioritized 
this is in the arsenal or in the list of bad behaviors that are 
out there, if you could provide us with that. I am not sure if 
you have that now, but that would be very helpful.
    Ms. Loar. We will provide that, and the Department of 
Justice has done training manuals that our Interagency team has 
worked very hard on to help prosecutors prosecute cases. So we 
will provide that for the record and followup.
    Mr. Smith. I appreciate that. We provided money in this for 
aid for foreign shelters, also for domestic shelters, under the 
auspices of HHS. We are not sure if $10 million is right. We 
are not sure if $20 million is right. I always believe you need 
to justify need with resources to marry up the two. Any 
insights you could provide into what could be done with that 
money so it is used effectively, again erring on the side of 
protecting the women, mostly women, although there are some 
boys and men that are involved who are abused, but most of 
these are women and young girls. I would be glad to hear if you 
or my colleagues have any further comments on that.
    Again, I want to throw the book at all traffickers, but 
there are gradations of egregious behavior, and rape is at the 
top. It seems to me that the other aspects of going after the 
traffickers are fine, so long as they are in addition to but 
not in lieu of these penalties I have serious concerns about 
the Wellstone-Slaughter bill because it is seen as being in 
place of. So in other words, no life imprisonment, up to a 10-
year ceiling max per charge for those who commit these crimes, 
and again, we will get fewer of those folks in the end, and we 
will have less protection for the women.
    Again, not to overstate, but Gary Haugen's statement when 
he talked about ``good idea'' versus ``urgent priority'' 
abroad, we all know how that works. I have been in Congress 19 
years. I know when you get the attention and when you are just 
going through talking points, and they are sitting there 
listening, and, it is not as high of a priority that it could 
be possibly.
    Again, not to belabor the point, but I think at least 
having the possibility of sanctions looming would help--whether 
it be ``good cop, bad cop'', phrase it any way you want, 
``Congress made me do it.'' It does give, I think, any 
Administration more clout rather than less.
    In terms of the office, and I said this yesterday to a 
group, and I didn't elaborate on it much, and I won't now, but 
there are so many different offices. We need a FEMA. We have 
got a hurricane coming up our coast, FEMA goes into action. As 
Ms. Loar pointed out so well, this is a relevantly recent 
explosion. Mr. Faleomavaega, as you know, this was going on for 
how many years, but now organized crime has said, hey, this is 
a major profit-maker for us, and we can exploit the poverty of 
these young women to the extreme, and then they are throwaways 
when they have been abused in this fashion. So we need a FEMA 
office, so to speak, to stop this rape. So I just encourage you 
to keep that in mind.
    Mr. Koh. Congressman, we appreciate the authorization, but 
if the appropriation doesn't follow, we have the obligation to 
establish and run new office and pay for it out of our present 
budget.
    Mr. Smith. I would also ask that the Administration then 
make requests for it, like on the religious persecution bill. 
Mr. Wolf, who was one of the prime originators of that 
legislation, and our Subcommittee, which took the lead in 
moving that legislation, were very discouraged when the money 
wasn't asked for. So it is a two-way street. I don't blame you 
or Ms. Loar for some of this. I think some of this is OMB. I am 
not sure where it happens, but we can be team players on this, 
I think.
    Ms. Loar. We thank you for that spirit of cooperation. We 
need that as we move ahead.
    Mr. Smith. Thank you. Any further comments?
    I want to thank our very two distinguished witnesses who 
are spending their lives trying to do good for others, and I 
look forward to working with you in the near future.
    I would like to invite our second panel to the witness 
table, and I would also like to remind our broadcast 
journalists in particular, as we previously discussed, if they 
could be sure not to broadcast identifiable images of Ms. 
Bhattarai, because she still faces some dangers of retribution 
for her testimony. We would note for the record, as I think one 
of my colleagues pointed out earlier, at least one of our other 
witnesses or victims decided not to come out of fear as well. 
So even at this point, we are still dealing with people who are 
willing to come forward, but have second thoughts about it, and 
take their names off the witness list because of that fear. It 
just underscores what we are talking about.
    I would like to begin by introducing our witnesses in the 
order that they will testify. Ms. Anita Sharma Bhattarai is a 
survivor of sexual trafficking. Drugged and abducted from her 
home in Nepal, she was transported to a brothel in Bombay, 
India. Since her release, Ms. Bhattarai's testimony has 
resulted in the release of six other forced prostitutes and the 
incarceration of sex traffickers.
    Second, we will be hearing from Laura Lederer, who is the 
Director of The Protection Project of the Women and Public 
Policy Program at the Harvard University Kennedy School of 
Government. A graduate of the University of Michigan and the 
University of San Francisco Law School, she has worked and 
written on human rights and exploitation issues for over 25 
years and has provided a tremendous wealth of information to 
this Subcommittee as well as to the Commission on Security 
Cooperation in Europe, which I also chair, on what is going on, 
and what the responses ought to be to this rising tide of 
exploitation.
    Finally, Gary Haugen is the President of the International 
Justice Mission, an international human rights agency that 
addresses cases of human rights abuses referred by workers in 
faith-based ministries around the world. An honors graduate of 
Harvard University and the University of Chicago Law School, 
Mr. Haugen previously served as a Senior Trial Attorney with 
the Civil Rights Division of the U.S. Justice Department and as 
the officer in charge of the U.N.'s genocide investigation in 
Rwanda.
    Mr. Smith. Ms. Bhattarai, if you could begin your 
testimony.

  STATEMENT OF ANITA SHARMA BHATTARAI, TRAFFICKING SURVIVOR, 
                             NEPAL

    Ms. Bhattarai. [The following testimony was delivered 
through an interpreter.] My name is Anita Sharma Bhattarai. I 
am 28 years old, and I am from Nepal. One day I boarded the bus 
to go to Daman where I had to collect some money, and I met one 
man and woman who were on the bus and who also offered me a 
banana. After eating the banana, I felt very dizzy, and I told 
them, and they gave me some medicine and water, and after 
taking that medicine I became unconscious.
    When I gained consciousness, I didn't know where I was. 
There were long buses--that she is referring to as trains--long 
buses, and then I asked her where I was, and why I was brought 
there. Then they told me not to make any sound, not to scream, 
because they had strapped hashish, drugs, around my waist, so I 
couldn't even call the police or just shout for help because I 
was so scared. I couldn't return from there, and so I just 
listened to them, and he told me--the man told me that we were 
going to Bombay, and that would take about 5 days, and after 
reaching there he would sell the hashish, and we would get 
$20,000 rupees each.
    After reaching Bombay, one lady came and met us at the 
station. The man told that lady to take me with her to her 
place, and that man also assured me that he would come and pick 
me up at 4 o'clock in the evening, and so I went along with 
that lady, who was called Renu Lama. So at Bombay I went with 
her to her house.
    Upon reaching the house, I then realized that it was a 
brothel, but later on in the evening, when men started coming 
in, I got to know that it was a brothel, and they forced me 
into prostitution after that, and on the 3rd day I had to take 
in my first client. I wasn't at all ready to do it, but that 
man stripped off my clothes, and he also went and told the 
brothel owners that I wasn't complying to his wishes. The 
brothel owners came and hit me with the iron--metal rods and 
also slapped me, and so I had to entertain him, but since I was 
aware of the diseases that the girls have been telling me also 
in the brothel, so I also told him to put on condoms. So that 
was the first time I was in prostitution, and after that I had 
to take in like about 2 to 4 men per day.
    I am telling the story in a very short way, but it will 
take a really long time if I have to go on and on. But from the 
day I entered there, I just started thinking of running away 
from there, and 1 day I succeeded, and with the help of Bob, I 
have been able to also come here and share my stories with you 
so that you could also help other girls like me who are still 
in brothel. I am really proud to see that I have been able to 
help about 7 to 8 girls with the help of Bob from IJM.
    Thank you.
    Mr. Smith. Thank you for your testimony and for your 
courage and your willingness to relay your story to this 
Subcommittee and, by extension, to the rest of the Congress. We 
are indebted to you, and we will do everything we can, I can 
assure you, to try to stop this horrible practice.
    [The statement of Ms. Bhattarai appears in the appendix.]
    Mr. Smith. Dr. Lederer.
    Ms. Bhattarai. I am ever ready to help you to do anything 
if you can help other girls.
    Mr. Smith. Dr. Lederer.

 STATEMENT OF LAURA J. LEDERER, RESEARCH DIRECTOR AND PROJECT 
 MANAGER, THE PROTECTION PROJECT, HARVARD UNIVERSITY, KENNEDY 
                      SCHOOL OF GOVERNMENT

    Ms. Lederer. Mr. Chairman, Members of the Subcommittee, it 
is a pleasure to be here. I am Laura Lederer, Director of The 
Protection Project at the Kennedy School of Government, Harvard 
University, and I am happy to share some of our preliminary 
findings.
    The purpose of The Protection Project is to build a 
comprehensive data base of laws and related materials on the 
commercial sexual exploitation of women and children. We are 
documenting the laws on child prostitution, child pornography 
and prostitution and surrounding activities, including pimping, 
pandering, procuring, maintaining a brothel, corruption of a 
minor, forced prostitution, trafficking, slave trade, 
kidnapping, rape and other laws in all 220 countries and 
territories worldwide.
    We are also documenting the age of majority, the age of 
consent to sexual relations, legal age for marriage and other 
ages relevant to commercial sexual exploitation of women and 
children, and we are examining the range of penalties, defenses 
to the charges, sentencing patterns, extraterritoriality and 
extradition treaties, law enforcement capability, victim 
assistance programs that are government-mandated, and other 
related matters. The collection of the data is taking place 
through a series of questionnaires, and the preliminary data 
base will be complete by the end of this year.
    I am going to talk a little bit about what trafficking is 
by telling the stories of some women who have been trafficked. 
Trafficking is a global human rights problem of which the 
majority of victims are women and children. Let me illustrate 
what trafficking is by telling you Lydia's story, an 
amalgamation of several true stories of women and girls who 
have been trafficked in the Eastern European area in recent 
years. Lydia was 16 and hanging around with friends on the 
streets, and here you can fill in the name of any of the sender 
countries, the Ukraine, Russia, Romania, Lithuania, Latvia, and 
the Czech Republic, when they were approached by an older 
beautifully dressed woman who befriended them and told them 
that they were so nice-looking that she could get them part-
time jobs in modeling.
    She took them to dinner. She bought them some small gifts, 
and when dinner was over, she invited them home for a drink. 
Taking that drink is the last thing that Lydia remembers. The 
woman drugged her, handed her and her friends over to another 
agent, who drove them unconscious across the border into, and 
here you can fill in the name of any of the receiver countries, 
Germany, the Netherlands, Italy, the Middle East, even as far 
as Japan, Canada, and the United States.
    When Lydia awoke, she was alone. She was in a strange room 
in a foreign country. Her friends were gone. A while later, a 
man came into the room, and he told her that she now belonged 
to him. I own you, he said. You are my property. You will work 
for me until I say stop. Don't try to leave. You have no 
papers, you have no passport, you don't speak the language. He 
told her if she tried to escape, his men would come after her 
and beat her and bring her back. He told her that her family 
back home was in danger. He told her that she owed his agency 
$35,000 of which she would work off in a brothel by sexually 
servicing 10 to 20 men a day.
    Stunned and angry and rebellious, Lydia refused. The man 
then hit her, he beat her, he raped her. He sent friends in to 
gang rape her. She was left in the room alone without food and 
water for 3 days. Frightened and broken, she succumbed, and for 
the next 6 months she was held in virtual confinement and 
forced to prostitute herself. She received no money. She had no 
hope of escape.
    She was rescued when the brothel was raided by police. They 
arrested the young women and charged them with working without 
a visa. They arrested the brothel manager and charged him with 
procuration, but he was later released.
    They did not attempt to arrest the brothel owners or to 
identify the traffickers. The girls were interviewed, and those 
who were not citizens of the country were charged as illegal 
aliens and transferred to a women's prison where they awaited 
deportation. A medical examiner found that Lydia had several 
sexually transmitted diseases. In addition, she was addicted to 
a potent form of cough medicine. She was physically weak. She 
was spiritually broken. There was no one to speak for Lydia. 
She feared the future because she knew her keepers. They had 
networks, they had the power, they had the resources to track 
her down, to kidnap her and bring her back again. She knew they 
could hurt her family, and they had an interest in doing so. 
Because unlike drugs where the product can be sold only once, 
when you can modify a human being, she can be sold over and 
over and over again. The risk is low, the potential profits are 
high, and girls like Lydia are a real target.
    There was no one who seemed to care about Lydia's life. The 
authorities didn't have the resources or the interest in 
tracking down the organizations of individuals in the 
trafficking chain, from the woman who drugged Lydia to the 
agent who brought her across the border, to the agent who broke 
her will, to the brothel managers and brothel owners. In 
addition, some corrupt law enforcement officials were obviously 
involved because the process of getting Lydia and her friends 
across the border and keeping the brothels running involved 
payoffs to local visa officials, to police in the country of 
origin, to border patrols for both countries and local police 
in the destination country. Lydia is without protection. The 
traffickers have bought theirs.
    Now, take Lydia's story and multiply it by hundreds of 
thousands, and you can get a picture of the scope of the 
problem. UNICEF is estimating that 1 million children are 
forced into prostitution in Southeast Asia alone and another 
million worldwide. An estimated 250,000 women and children in 
Russia, the Newly Independent States, Eastern Europe are 
trafficked into Western Europe, the Middle East, Japan, Canada 
and the United States each year. An estimated 20,000 children 
from Central American countries such as Guatemala and El 
Salvador are being trafficked for purposes of commercial sexual 
exploitation.
    You have the figure from the Department of State of over 
50,000 women are trafficked into the United States, and then 
there are the countless thousands of women and children in 
Africa and Central and South America and other countries where 
we have very little information on the scope of the problem.
    Of the 155 cases of forced prostitution that were brought 
to the courts in The Netherlands, 1 year, 1996, only four 
resulted in convictions. Thousands more have not been brought 
to the courts at all. The accounts of arrest that police have 
made in North America show that women are being sold for as 
much as 16,000 to brothel owners. When the rescued women tell 
the stories of debt bondage and sexual slavery in which they 
are forced to work off $10-, $20-, or $30,000 debt bonds by 
servicing dozens of men a day, these numbers and the 
accompanying accounts illustrate the trafficking of women and 
children for the purposes of prostitution has become a 
contemporary form of slavery, and the numbers may soon be on 
par with the African slave trade of the 1700's.
    The reason The Protection Project is documenting the laws 
of individual countries is because trafficking is 
international, but all of the laws addressing the problem are 
national. There are virtually no international laws with 
enforcement capability. The United Nations conventions, such as 
the Convention on the Rights of the Child and the Convention on 
the Elimination of All Forms of Discrimination against Women 
and the other conventions, can play an important role in 
setting international norms, but they do not have any 
enforcement capability by themselves, even when the countries 
adopt them into their Constitutions.
    The countries have to draft and pass penal code statutes 
that specifically address each of these commercial sexual 
exploitation issues if they want their law enforcement people 
to have tools to arrest, charge and prosecute traffickers. We 
have found that countries often tell us that they have adopted 
such and such convention, and so they have taken care of the 
problem, and they don't go the next step, which is to actually, 
draft and pass those statutes.
    I don't know that I need to go over these three P's, the 
prevention, prosecution and protection. I do agree that those 
are three necessary ways to attack the problem. I just want to 
say that if you take any one alone, it is not going to work. So 
if you have lots and lots of protection programs like Italy is 
doing, but you are not vigorously enforcing, you are not 
prosecuting, you are just doing a mop-up job. So it has to be 
all three at once or it won't work.
    I will just conclude by saying that trafficking often 
originates in countries with poverty and few opportunities for 
women and few laws to prosecute traffickers, but that is not 
the only thing. It is true that economic deprivation is part of 
it, but there is also a large demand, and if there weren't that 
demand, I think there wouldn't be as much of the kind of 
kidnapping and abduction and trickery and deceit that we are 
seeing. We have to deal with that demand issue as well as with 
the fact that, that the women and children may feel like they 
need to do this, or that their parents may be selling them into 
it. There are all those customers on that other end there that 
are creating the need for the supply.
    Based on our preliminary findings, we expect the 
trafficking will continue to increase in the absence of 
specific enforceable laws aimed at prevention, prosecution and 
protection. As someone who has worked in this field for 20 
years, it is exciting to see this Subcommittee's work and 
leadership on this important issue, and I am happy to see it 
recognized as a major human rights priority. It is time to move 
beyond the conferences and the meetings and the seminars and 
the expressions of shock to a coordinated effort to criminalize 
the conduct of these interlocking rings of businessmen, these 
modern mafias, these corrupt government officials.
    We are the people who can help the young women and girls 
like Lydia. We can draw attention to their plight. We can help 
nations strengthen their laws and ultimately find the ways to 
prevent and protect young women and children from commercial 
sexual exploitation.
    I can tell you from where I sit, many countries are looking 
for leadership from the United States. U.S. leadership is 
important not only because of our human rights role, but 
because it serves the American national interest. One of the 
hallmarks of the 21st century is going to be the emancipation 
of women worldwide, and the issue of commercial sexual 
exploitation of women and children is one of the last, 
unfortunately the last, even in the women's movement the last, 
of the issues, but definitely not the least, to be examined by 
our society. So your efforts, Mr. Chairman and Subcommittee 
Members, will put America on the right side of history as women 
gain power and dignity.
    Thank you very much.
    [The statement of Dr. Lederer appears in the appendix.]
    Mr. Smith. Dr. Lederer, thank you for your comprehensive 
testimony, but even more than that, for your daily commitment 
and the information you provide. You not only have the right 
instincts, but you also chronicle and systematically deal with 
the issues so that it leaves very little room for making 
mistakes, and I think the more information we have and the more 
we create real policy with regard to prevention, prosecution, 
and protection, and doing all three in tandem, which you have 
admonished this Committee to do, the more apt we are to have 
real success at the end of the day. The information that you 
have been giving to the Subcommittee and to the Helsinki 
Commission for many, many months now has been of tremendous 
worth, and I want to thank you publicly for that.
    Mr. Smith. Mr. Haugen, I would like to ask you to present 
your testimony.

  STATEMENT OF GARY A. HAUGEN, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, INTERNATIONAL JUSTICE MISSION

    Mr. Haugen. Thank you, Mr. Chairman. I would indeed like to 
thank you for inviting me to participate in this panel, but 
more than that I would like to thank you first for inviting 
Anita to share her story. I am sorry that other victims weren't 
here. I am afraid it is almost impossible for you as members of 
this panel to understand just how far away this room is from 
where women like Anita, and children who are trafficked 
sexually into forced prostitution, how incredibly distant and 
far this place is from the living hell where they live every 
day, and there is no way for us to engage this without 
understanding their story. I am very grateful for you making 
that possible.
    I believe the American people are compassionate people, and 
they will hear Anita's story, they will hear the story of those 
950,000 others that you mentioned, Congressman, and over time, 
it may not be today but tomorrow, sometime later, the American 
people will hear the story, and they will respond. It would be 
wonderful if that began here today.
    Let me just explain, I am serving with the International 
Justice Mission as its director. International Justice Mission 
gets cases of human rights abuses referred from faith-based 
ministries overseas. Churches deploy tens of thousands of 
workers overseas to do humanitarian work and mission work, and 
they see abuses in the field, and they turn to us to deal with 
them.
    One of the things that they are increasingly burdened by is 
the plague of forced child prostitution, forced prostitution 
that includes the trafficking of victims across international 
borders. We are not public policy experts. We are active in the 
field. We go into these areas. We use criminal investigators to 
infiltrate the brothels. We use surveillance equipment to 
detail where the children are being held, and then we work with 
trusted police contacts in these countries to get the victims 
out, and Anita represents one of those wonderful stories that 
this is a life worth extending heroic efforts for in order to 
give her a future.
    I had not intended comment at all upon the Administration's 
testimony today, but I did want to say one thing and that I 
believe the power of words is overwhelming in these arenas, and 
I believe, unless my hearing was off, that I think Assistant 
Secretary Koh and Ms. Loar managed to get through their entire 
testimony without saying the word ``sexual trafficking''. It is 
hard and ugly to say and to distinguish it because it is indeed 
about rape which, as a former lawyer at the Department of 
Justice, we, understand rape to be sexual intercourse without 
consent.
    We have in criminal law the notion of assault, but we don't 
consider it sufficient that we don't also have a notion of 
sexual assault. We have a notion of child abuse, but we also 
have a notion of child sexual abuse. There is trafficking, but 
there is trafficking for sexual purposes. Our agency has dealt 
in the South Asian subcontinent where Anita comes from, and we 
have worked to release hundreds of children from bonded 
slavery, but on top of the bonded slavery, it is as if those 
children or women are then raped. That is the reality, I think, 
that Americans will be continually ready to need to confront, 
and it would be wonderful for our leadership in Washington to 
take bold, courageous leadership in recognizing the facts.
    Because one of the victims couldn't be here today, I want 
just as part of telling the story to just give you a few facts 
from her experience, a 17-year-old girl named Jayanthi from 
India, who was sold into forced prostitution at the age of 14. 
She was drugged, abducted off a train, sold into a brothel. She 
was held in a windowless room for 3 days and beaten with iron 
rods, plastic pipe, and electrical cords until she agreed to 
have sex, and then she proceeded to have to have sex with about 
20 customers a day over a 3-year period and was forced to have 
three abortions over that time. Fortunately through the work of 
our operatives we were able to identify where she was, get her 
out of that brothel, and now she is receiving good aftercare, 
but she is an emblem, I must tell you, of thousands and 
thousands of women and children, which, if you cared to go with 
us to any of these places in the world, we could purchase the 
opportunity to rape a woman or girl for you with a very small 
number of dollars. The numbers are overwhelming and should be a 
matter of urgent compassion of the American people.
    What have we learned about the way this works from trying 
to deal with it in the field? The international sexual 
trafficking is driven by what is permitted within the country 
that allows forced prostitution. The men who trafficked Anita 
into India, they weren't worried about whether or not there 
would be someone who would buy her once she got there. They 
were motivated by a complete sense of confidence that if they 
could get her into the country, there would a flourishing 
business of forced prostitution that would willingly buy her. 
They wouldn't receive her with a sense of, oh, my goodness, 
don't bring her, you forced her, we don't know what to do with 
her, we will get into big trouble if we do that. No. There is 
an overwhelming sense that this is the way things operate, and 
there are not very serious sanctions available.
    We have learned, therefore, because international sexual 
trafficking is driven by the flourishing trade in forced 
prostitution, one must do something about forced prostitution. 
Forced prostitution is about coercion, and therefore, it can 
only be dealt with if we impact law enforcement on the streets. 
It is amazing how impervious brothel people are to 
international covenants, U.S. policy, everything else, unless 
it makes its way down to the street and affects their conduct 
toward that brothel.
    There are three things that impact law enforcement on the 
street: political priorities of the people in the senior chain 
of command, because that works its way down to the street. But 
even if that is a priority, you can't do anything about it 
unless there is clarity and comprehensiveness of law. So then 
you need clear and comprehensive law. Third, you need resources 
and training so that law enforcement on the street is 
effective.
    We see law enforcement on the street regularly pick up 
their bribes. You can set your watch by it. We know that police 
have to bribe their way within a jurisdiction in order to be 
assigned to a red light district because that is where they can 
make the most money. We see police delivering food to the 
brothel so the brothel keepers don't have to let the children 
out or the kids out to get food. There is in many situations 
tremendous complicity. So you are not going to do anything 
about forced prostitution which provides the magnet for 
international sexual trafficking unless you affect law 
enforcement on the streets.
    This is why it is, from the U.S. policy perspective, we 
believe, a carrot-and-stick approach. These sticks do, in fact, 
affect what the priorities are of the senior leadership. This 
shifting from the good idea to an urgent priority is usually 
moved by a sense that something bad is going to happen. Then 
you can make an urgent priority, but if you don't have clear 
law, and if you don't have a supportive relationship with law 
enforcement that trains them and resources them, you will not 
be effective. That is why all the work we have done overseas, 
we have done with positive law enforcement relationships, 
because we cannot get the children out of the brothel without 
the man who brings the force of the State.
    Finally, you need to provide a safe environment for those 
who are trafficked. There are indeed a mind-numbing number of 
women and children around the world who are sexually 
trafficked. I think it was Stalin who said that the murder of a 
single person is a tragedy, but a million deaths is a 
statistic. I hope that the statistics of the hundreds of 
thousands of women and children who are raped for rent will not 
become blurred through us, and I hope that the Committee hears 
Anita's story, uncovers the other stories to be told, and takes 
decisive action so that history will judge us well in our 
response.
    Thank you, Mr. Chairman.
    [The statement of Mr. Haugen appears in the appendix.]
    Mr. Smith. Mr. Haugen, thank you very much for the truly 
life-saving work that you and your organization do for people 
like Anita. It certainly is inspiring to hear you speak and to 
know of your work. Thank you for giving us some additional 
information and a moral imperative to act upon to try to get 
not just this legislation, but any other legislative policies 
and fixes that could advance the cause here.
    When we talk about prevention, prosecution and protection, 
obviously part of the protection side is healing both 
spiritually and bodily, mind and soul, and I think you know one 
of things that I or the Administration asked was how much more 
money do we put forward here. Whether it be made available to 
faith-based organizations or to others in a competitive grant 
situation, whatever, it certainly seems to be a paltry sum 
compared to what the real need is out there. This whole idea of 
the collusion of the police forces, that whole culture has to 
change, and that is one reason why we believe and why I read 
your quote to our two previous witnesses to try to get a 
response in terms of ``urgent priority'' versus ``good idea''.
    We have got to get them to snap to and know that we are 
serious. There is a waiver provided for the President in the 
bill. It is very generous waiver, but it gives him tools, we 
believe. If any of you would like to comment.
    One thing I do find disturbing in the Wellstone 
legislation, which is, for want of a better word, a competing 
substitute to our bill, is that it was written in a way to try 
to diminish the efficacy of our bill, to do less and suggest 
that it is more because it covers a larger area. But it seems 
to me, like you pointed out, Mr. Haugen, that we are talking 
about rape, we are talking about a situation that is bad and 
getting worse, and while we can approach and attack all 
trafficking, it seems to me that this one is at the very top, 
and should be, of any prioritization that we have.
    I mean, this is mass rape. It was a war crime in Bosnia. It 
is no less of a crime against humanity in New York City or 
Philadelphia or Washington, D.C. It is a crime against humanity 
and against individual women like Anita who have to suffer its 
cruelty.
    So perhaps all of you might want to comment on whether or 
not we are proceeding down the right path by focusing on sexual 
trafficking. That is not to diminish the outrage that we all 
feel about other kinds of trafficking. But again--like I said 
to Ms. Loar and Secretary Koh--if it is offered in lieu of, and 
we get a substitute with a 10-year ceiling in terms of 
punishment for perpetrators, that is a weaker substitute. That 
is a dilution of our efforts, not a strengthening.
    Ms. Lederer. I think I can speak safely for many women's 
organizations when I say that they would believe that sex and 
labor aren't the same and can't be equated. They need to be 
separated, and if we deal with sexual trafficking and deal with 
labor trafficking, I think that is the right approach.
    Mr. Haugen. Of course, again, from the perspective of 
operation in the field, without real broader public policy 
expertise, we certainly do as law enforcement professionals 
treat crimes that involve nonconsenting sexual activity as 
being a special and distinct crime. Now, it seems to me a 
rhetorical trick to try to say that because there are 
distinctive features to a certain kind of crime that it is 
somehow unfair pleading to name those distinctives, treat them 
differently, focus upon them and deal with them; to suggest 
that those who support that are somehow trying to diminish the 
pain and suffering of those who suffer from different kinds of 
crimes.
    It is hard for me to know why someone would even suggest 
that we would want to treat specialized problems as if they did 
not have distinctive mechanisms, as if they did not have 
distinctive outcomes, as if they did not have distinctive 
consequences.
    As I mentioned, we work as an organization focused on 
problems of abuse of child labor, and that is only one issue, 
and we have seen hundreds and hundreds of children delivered 
from that, and it is an incredible thing. To see, for instance, 
the millions of children who sit and roll beedie cigarettes or 
sit in some other menial task, it is a crippling and horrible 
thing. But to not treat what would happen if in that context 
they were also raped? In the context of their forced labor, to 
not treat that as a very serious problem and then also not to 
deal with the enormous sex trade problem--it is ugly to talk 
about, but there is an enormous trade in sex in the world, and 
it has a huge monetary impact on people who then will abduct, 
defraud, coerce other people to be sold into that market. They 
are motivated by the power of the dollar, and the dynamics, I 
think, are worthy of focus.
    Mr. Smith. Let me ask, in your experience, is support by 
government officials in sending, receiving, and transit 
countries a major part of the problem, and what can the U.S. do 
about such support? Specifically, would you favor assistance to 
governments in efforts to enact effective antitrafficking laws, 
punish traffickers, and protect victims, and would you also 
support reductions in U.S. and other multilateral assistance to 
governments that refuse to do these things, similar to what we 
tried to spell out in our legislation? What other measures 
might you suggest we undertake?
    Ms. Lederer. I can't speak directly to any one specific 
bill or approach, but I can say that I think we need as strong 
and as effective mechanisms as we can possibly manage to deal 
with this, and I do believe that removing aid can be--that a 
negative incentive is an incentive; in other words, that if we 
removed certain aids, it can be effective in getting the 
government's attention.
    Mr. Haugen. To elaborate, perhaps, on my earlier remarks, I 
believe it is an effective carrot-and-stick approach that the 
cop in the street does significantly manifest what are the 
urgent priorities, not the good ideas, of his senior 
commanders, but what are their urgent priorities, and urgent 
prioritis are frequently the result of what those senior 
political leaders think might happen to them if they didn't 
elevate the issue to the level that was necessary.
    I was in South Africa in the mid-1980's during the height 
of the state of emergency in that country and saw the 
incredible brutal oppression that took place in South Africa. 
Of course, in those days the word also went up from different 
quarters generally about how sanctions would have no effect; 
that, in fact, if we just appealed only to the better angels of 
the nature of the leaders of South Africa, that things would 
change. It is difficult now to understand why the people who 
understood the importance, not the exclusive importance of 
negative consequences, but at least the plausible helpfulness 
of negative consequences, can now deny that that is an 
important part of trying to seek change.
    On the other hand, efforts that completely isolate 
relationships with law enforcement, that do not assist them, 
that do not relate well to them, that do not appreciate their 
good faith efforts and affirm them, then that is a bad course 
as well. You all are the experts on how to do that in a 
technical policy sense, but I do know that what ends up working 
in the street is what matters to the senior political 
authorities and what they are resourced to do.
    Mr. Smith. For the record, I supported sanctions against 
South Africa. I was one of those few Republicans, only one on 
this Committee if my memory is correct, who supported them as a 
tangible means to a good end, to get rid of apartheid. There 
were people who made that very argument, but you don't hear 
that argument made now in retrospect. I think the prudent use 
of withholding nonhumanitarian aid, and not even sanctions in 
the typical sense that that word is used of proscribing trade 
or inhibiting trade--we are just saying money we might 
otherwise give you, other than humanitarian aid, you are not 
going to get, or we may withhold some or all of it. It seems to 
me it is a very modest way, so I appreciate your point on that.
    Let me just ask Dr. Lederer, you and The Protection Project 
have compiled a data base with the laws of countries around the 
world on sex trafficking and related issues. How would you 
characterize progress so far in getting countries to notice 
this problem and to take effective measures against it?
    Ms. Lederer. Mr. Chairman, can I just go back for 1 minute 
to your previous question? Mr. Haugen has said that it is 
important to help countries and give them the resources for law 
enforcement and training the law enforcement.But even before 
that is the drafting of good laws, because if the good laws 
aren't there, then the good law enforcement can't take place. 
What we have found as we have collected these laws on sexual 
trafficking, trafficking in slave trade, and kidnapping, is 
countries who often--even when they are interested in improving 
their laws--look around quickly and say, who can help us, who 
can help us, and they take whoever is the closest who will give 
them some pro bono help. So you see a series of laws have been 
cobbled together, a little bit from France, from Germany, some 
help from Brazil and not necessarily a well-thought-through 
statute on trafficking.
    The first thing that needs to happen is that countries that 
are looking to improve and strengthen their laws need 
assistance in that regard. That answers a little bit of this 
next question which was--if you could repeat it.
    Mr. Smith. It had to do with how well other countries--you 
basically focused on how well are they in terms of drafting 
their policies. Are they in denial, are they accepting it? How 
far along are they? Again, let me just add to that in terms of 
our own legislation. Remembering the adage ``know thyself'', 
what have we done to fix our own house? As the testimony 
indicated earlier, it isn't firm. It is in need of being fixed, 
and it seems to me we have a remedy that at least gets very 
serious about it, but any recommendations you might have in 
terms of how we could improve it would be appreciated.
    Ms. Lederer. We found that almost every country in the 
world has some law that could be used to prosecute traffickers. 
Some of them are very old. Some of them go back to the turn of 
the century with the white slave trade and are related to that. 
Some are procuration laws from the 1950's, and about 50--I 
would say 50 to 60 countries--have newer laws that have been 
drafted and passed in the last 10 or so years that specifically 
address either sexual trafficking or trafficking generally.
    I do think countries are beginning to be aware of the 
problem. Certainly every country has heard from us many, many 
times. I also think that there are countries that would prefer 
not to deal with this. They know they have a problem, and they 
are not ready to deal with it yet, and so they are, I wouldn't 
say in denial, but they are certainly not dealing with it and 
not cooperating. So I hope that is helpful.
    Mr. Smith. Let me ask, Mr. Haugen: We have heard from NGO 
working in Russia. As a matter of fact, we heard from them 
directly in meetings we had during the Parliamentary Assembly 
that parliamentarians--and I saw this in terms of their denial 
themselves--are unwilling to recognize and address the issue. 
Has IJM or have other NGO's working in South Asia had similar 
experiences with governments and legislators in those 
countries?
    Mr. Haugen. We have not had the opportunity to work 
directly with legislators or the policymakers of those 
countries except to relate to the senior police command. We 
will go into a jurisdiction, we will document where the 
children are being held and take that information up to the 
senior level of command. At that level we almost always see a 
positive response to get those children assisted, but for that 
to be an ongoing, urgent priority for them, they need to know 
that they both have the support to do that, and they also have 
the encouragement of their relationship with the United States 
in that.
    Mr. Smith. What do our own Ambassadors, U.S. Ambassadors to 
those countries, and other diplomatic personnel do to assist 
you when you are seeking to get an outcome, to free women like 
Anita?
    Mr. Haugen. To date we have had good relationships with 
U.S. Embassies overseas that we apprise of what we are doing 
and get a sense of the security situation from them. At this 
time it has not been necessary to seek their intervention on 
forced prostitution matters, although their help has greatly 
assisted for matters of illegal detention or some other human 
rights abuse. But I believe our overseas embassies are eager to 
do something decisive about this, but I think need to be 
empowered by the U.S. Congress and the Administration to do 
what will be most effective.
    Mr. Smith. I appreciate that.
    Let me ask one final question before yielding to my 
colleagues. You heard the earlier conversations about what kind 
of protection would be best for the victims themselves who are 
facing the high probability of deportation. One effort endorsed 
by the Administration would be a 3-month temporary visa type of 
deal. My argument is that that probably is not enough; why not 
go the max in terms of providing protection with the 
possibility of permanent residency here in the United States if 
certain very minimal factors are met? Where would you come down 
in terms of that side of it? Do these women actually go back to 
bad situations in countries like Ukraine or Russia, or is that 
much overstated, or in Asia?
    Mr. Haugen. I don't know very much about what they go back 
to in Russia or the Ukraine. I do know that certainly they go 
back to situations in which there was a coercive force that was 
willing to use violence in a criminal act, and so they go back 
to potential vulnerability. But that is precisely what the 
traffickers continually try to do is create a sense of fear not 
only from the traffickers, but from these vague outside 
sources; that the trafficker actually becomes the protector 
because they place this victim in this environment which gives 
them a sense that there are these other forces that are going 
to hurt them, and usually the trafficker points to the foreign 
government that they have been introduced to to say, OK, you 
are now in a foreign country, if you get caught by the police, 
if you cry out, if you do anything, they will capture you, they 
will imprison you, and believe me, already their notion of what 
law enforcement looks like can frequently be pretty brutal.
    My perspective is that maximum effort must be extended to 
create for them a safe environment. If you are going to get 
them ever to cooperate in prosecution, the amount of effort it 
takes to even get someone like Anita here to tell her story, to 
let alone actually then participate with the adversarial 
process of prosecution, that is an enormous amount of demand of 
a human being. So my perspective, whatever is necessary to give 
them a sense of protected environment afterwards, I believe we 
should adjust our immigration laws on the principle that this 
is what we would want to extend as a safe place for our 
daughter if she were abducted, for our own children, and that 
to me is sort of the master test.
    If you come up with whatever your immigration law is, and 
then you take it to the teenage girl you know best, and you get 
her moral intuition as to whether or not that seems 
sufficiently generous and protective of a person who had been 
trafficked, then I would be willing to go with that moral 
intuition.
    Mr. Smith. Thank you.
    Dr. Lederer, if you could make available to us--I know it 
is not finished--but whatever preliminary information that 
might be helpful to the Subcommittee as we move this 
legislation forward, especially as it relates to these other 
governments and their response to the problem in their own 
countries, whatever data you can make available. I know end of 
the year is your deadline, I believe, or time line. It would be 
most helpful.
    Mr. Smith. Again, I would like to thank all three of our 
witnesses and especially Anita for her courage and willingness 
to be here and to present us with the information, your story 
that you have provided us. We are very, very grateful.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. If I could offer 
just a friendly recommendation, Mr. Chairman, the next time, my 
deepest regret is that we should have had these panel of 
witnesses to testify first before hearing from the 
Administration, for obvious reasons. I cannot believe that the 
figures that the State Department and the Administration is 
playing with on this very important issue of sex trafficking is 
so disparate from what Dr. Lederer has just shared with us. 
This is just abominable as far as I am concerned. If they don't 
even have the accurate figures, how can they possibly declare a 
policy that is accurate and correct as far as from our own 
policymaking apparatus if it is not there?
    Mr. Smith. Would the gentleman yield on that?
    Mr. Faleomavaega. I yield.
    Mr. Smith. We have often asked the Administration to either 
stay or allow witnesses, especially when they have personal 
stories to tell, to go first. As a matter of protocol, they 
usually argue that they would like to go first. But if you 
could join me and Mr. Hilliard as well in asking the 
Administration to perhaps reverse the order. We have done that 
in the Veterans Committee on occasion, when the veteran service 
organizations come first and the Administration last, and they 
hear things they might not otherwise hear that are most 
helpful. I thank the gentleman for yielding.
    Mr. Faleomavaega. I would say to the gentleman we are doing 
it now for the Resources Committee; that we have had assistant 
secretaries sitting there waiting until the ladies and the 
gentlemen that we have invited to testify could be heard for 
their testimony before hearing from government officials. I 
thank the gentleman for sharing with me that similar concern.
    I certainly want to thank Ms. Bhattarai for your courage 
just to be here. This is not a very easy task for any woman 
under the circumstances that she has had to go through in her 
life.
     Mr. Chairman, I submit I have a 13-year-old daughter, and 
I wish that every parent, every father, every brother could 
have a real sense of appreciation what women and children go 
through. We are talking about rape and forced prostitution. As 
far as I am concerned, they are the same thing. It is just 
another fancy word or adjective saying sex trafficking. Forced 
prostitution, as far as I am concerned, is rape, and that is 
exactly what happened to this lovely lady, and I am just so 
sorry to hear that this is the kind of testimony that Members 
of this Committee have had to hear the reality of out there. 
This is not an academic exercise or theory. This is reality out 
there, not just to 1 million women and children. This is almost 
4 million that are affected by this multibillion-dollar sex, 
criminal offenses that are being committed by these pimps in 
these foreign countries. This is just really, really beyond me, 
Mr. Chairman. I am just very, very disappointed.
    I think we have had enough meetings and conferences, as has 
been stated earlier, by the Administration officials. I think 
we need to put our foot down and come up with substance and not 
just a lot of rhetoric and talk.
    I noticed, too, Mr. Chairman, sex trafficking or forced 
prostitution is among the most industrialized countries of the 
world. You don't have to go to Nepal or India or other 
countries. It exists in countries like Japan, the second most 
powerful economic power in the world, and this goes on. It 
seems to me, Mr. Chairman, if there are any protocols that will 
have any sense of substance, we ought to deal with the 
industrialized countries that come out with a protocol to 
address this very specific issue.
    I raised the question with the Administration about the 
protocol because it has been worked upon for the past 9 months. 
The problem that I have with this proposal, Mr. Chairman, is 
sex trafficking is only one out of perhaps seven or eight other 
forms of trafficking. It seems to me when you get into that 
hodgepodge of other forms of criminal act or actions, then I am 
afraid that it is going to be based on a low priority, just as 
it is the implication that I gather from the Administration's 
past, not just this Administration, sex trafficking is just not 
on the radar screen in the minds of policymakers.
    To this end, Mr. Chairman, I commend you for calling this 
hearing, and I sincerely hope that we will proceed in getting 
the Committee not only to pass the bill that I heartily 
endorse, and I hope to work closely with you to get this thing 
moving.
    Just a couple of questions, if I may, on the issues that 
have been raised by Dr. Lederer. I note here that 1 million 
children under forced prostitution are in Southeast Asia alone. 
I am most surprised that the State Department did not even take 
any notation of that fact. One million children worldwide are 
affected by this alone. I mean, this is just unbelievable.
    I want to thank both Dr. Lederer and Mr. Haugen. I want to 
thank both of you for your most comprehensive statements to 
this issue, and I really, really sincerely hope, Mr. Chairman, 
that we move on this legislation because I think in my personal 
opinion there has been a lot of rhetoric expressed, a lot of 
meetings, a lot of conferences, but I think we haven't 
addressed in actually putting any teeth into the matter by 
saying enough is enough, not only because we get 50,000 in this 
forced prostitution here in our country, but what about the 
other millions that are occurring in other countries of the 
world.
    I cannot for one, Mr. Chairman, use poverty as a valid 
excuse for allowing this to happen, I don't care how poor a 
country is. I would think that, as Ms. Bhattarai testified in 
her eloquent testimony, it is just beyond me how strong the 
culture and the values that they place, and where I come--if I 
catch that guy, I would castrate him 10 times. I am sure that 
even here in our own country, Mr. Chairman, this should not and 
will not be tolerated. Here again, I just want to add my 
commendation to your leadership, Mr. Chairman, and thank the 
members of the panel.
    Mr. Smith. There has been so little reporting and coverage 
on this, but occasionally there is a breath of fresh air. Fox 
Files recently did a piece on what is happening in the 
Philippines, which I remembered when you mentioned the million 
in that part of the world. Mr. Cuomo did the narration and 
actually went out and talked to some of the worst of the worst 
that were doing this, and it just seems to me that we need more 
scrutiny like that show, which I think was a real wake-up call 
to a lot of people, about what is actually happening around the 
world, whether it be in Russia, the Ukraine, or Asia, in India 
or Nepal or anywhere else.
    This is an outrage. These are crimes against humanity and 
particularly crimes against women, and we need to give real 
tools to our policymakers and our law enforcement people, and 
that is why this legislation has to be passed sooner rather 
than later. Next week would be none too soon, from my point of 
view. It is bipartisan, and I want to thank you, Mr. 
Faleomavaega, for being one of the cosponsors of the bill.
    Mr. Faleomavaega. I thank the members of the panel.
    Mr. Hilliard. Thank you, Mr. Chairman.
    Let me thank the witnesses for their testimony, especially 
the young lady who has been through this situation. Up until 
today I had not been a cosponsor of this bill that you have, 
Mr. Chairman, but I just told my aide about a half an hour ago 
that he is to notify the Committee that I wish to become a 
cosponsor, and I think we have really got to move forward. This 
is a difficult situation. We should have done something about 
this years ago.
    I have a few technical questions I wanted to ask, and I 
guess, Dr. Lederer, this probably would be for you and perhaps, 
Dr. Haugen, I am not sure, but in your research, is there any 
country that has a particular bill that is somewhat effective 
or that works that you have seen?
    Ms. Lederer. We are still in the stages of gathering all 
the laws and of sifting through them and analyzing them. In 
fact, that process, the analysis, has just begun. One of the 
purposes of gathering the laws is to look at them and find the 
best of the best, and, from the best of the best of those laws, 
to create some model legislation, some international model 
legislation that could be used by countries that want to 
improve and strengthen their laws. That hasn't ever been 
attempted before. We do have model legislation in the ABA 
nationally, but we believe that with this issue we can create 
some model legislation that will be effective, on an 
international level.
    So to answer your question, it is a little too early, I 
think, to recognize any particular one, law or one statute in 
any particular country, but we have noted that there are some 
very innovative laws, and we are in the process of, setting 
those aside for their examination.
    Mr. Hilliard. Have you looked at the proposed legislation 
here yet?
    Ms. Lederer. In the United States?
    Mr. Hilliard. Yes. The legislation.
    Ms. Lederer. I am aware of the Smith bill; is that what you 
are asking?
    Mr. Hilliard. Yes.
    Ms. Lederer. Yes, absolutely.
    Mr. Hilliard. Will it also be taken into consideration as 
you gather the laws?
    Ms. Lederer. Yes. In fact, all of the bills that have been 
introduced in the United States we have added, even though they 
haven't passed. We are doing that in other countries also, 
bills that have been proposed that haven't passed yet, that 
look very, very good.
    Mr. Hilliard. I will await your results. It is something I 
think we really need to look at and we need to consider, and we 
need to make sure that we get a decent bill that will be 
effective the world over.
    Let me go back, sir, to one of the answers you gave the 
Chairperson when he was asking about the type of cooperation 
you have gathered from our embassies abroad and our diplomats. 
Tell me, have there been any countries now that have resisted 
your work and your efforts in what you seek to do?
    Mr. Haugen. I would say no, sir. In terms of our efforts to 
deal with forced prostitution?
    Mr. Hilliard. Yes.
    Mr. Haugen. No. Where we have done what is actually kind of 
the street-level law enforcement investigative work, and then 
we have taken that data up the chain of command, we have seen 
very, very good response. It is a sign of hope on our part that 
these governments need to be encouraged in these worthy 
efforts. They need to be supported in their law enforcement 
efforts, and there is ways of bringing U.S. law enforcement 
alongside in areas of resourcing and training that could be 
very effective.
    Our organization employs people of criminal investigative 
and law enforcement background. They work well and relate well 
with law enforcement overseas. I believe rather than 
necessarily focusing on the terrible things that would be 
interrupted in terms of relationships, if you have any sort of 
negative consequences through sanctions, that generates a lot 
of discussion, but not a tremendous amount of light. But I do 
know that positive, cooperative relationships with law 
enforcement can make a difference, but that many times those 
activities in the street are dictated by the most senior 
priorities, and that is when the broader relationship with the 
U.S. Government matters.
    Mr. Hilliard. Forced prostitution and forced rape is 
something that really needs to be brought to the front burner 
now. The press is very powerful. But you have got to have those 
that are interested in keeping the subject alive, and you have 
to have those that will continuously write about it, those that 
would have the talk shows and the discussions about it, and it 
might not be a bad idea if there is some type of bureau that 
would be set up to document the abuses, to document those 
countries that are worse off than others, and to document and 
follow this and continuously keep the public informed about 
what is happening here. This is atrocious. We should have done 
something about it years ago.
    How prevalent is the sex trade here in this country?
    Ms. Lederer. I think your point about documenting is the 
exact right point. We have so very little information on this 
subject in this country and other countries, so very few facts, 
and we have no mechanisms right now for gathering them. What we 
are doing now is comparing apples and oranges. We have one NGO 
that says it is this, and then in another country another NGO 
that may be collecting facts in a very different manner.
    So you really cannot get a global perspective or even a 
perspective in any one country of what is going on. So you are 
right on target, sir. We need more information. We do need a 
way of gathering, fact-finding and researching.
    Mr. Hilliard. I am sorry, before you answered I asked 
another question, and excuse me, but is the sex trade prevalent 
here?
    Ms. Lederer. I think I am answering it by saying we don't 
know. We don't know how prevalent it is.
    Mr. Hilliard. I have often read about, especially those 
persons coming from Russia who are forced here into 
prostitution, plus coming from other Third World countries. It 
is one of the things I read about and put it aside, but you 
have really touched me today, and I want to know now where we 
are and where we need to go.
    Ms. Lederer. I think I can say that the State Department 
does say that is a conservative figure, that 50,000 is 
conservative. That is one they felt comfortable with, which 
probably means it is more than that.
    Mr. Hilliard. Is there anywhere in this country that you 
know of, at any university or any public or nonprofit 
corporation, where information is gathered and assimilated, 
dealt with in this area?
    Ms. Lederer. I can say that The Protection Project----.
    Mr. Hilliard. The only one basically that you know of?
    Ms. Lederer. That I know of, that is gathering in a 
methodologically sound way. We are asking every country the 
same set of questions, and we are also asking all the NGO's in 
the various countries the same set of questions so that when we 
get all of the information back, we will not have that apples 
and oranges situation. We have got responses now from the 220 
countries and territories, from about 180 countries. So we are 
doing phenomenally well in terms of the countries responding to 
us. Now it is a matter of taking and looking at that 
information and seeing what we have got.
    Mr. Hilliard. What about here in this country? From time to 
time I read articles, stories, somewhat similar, not as brutal, 
about people who have come here and who have to engage in 
prostitution, forced prostitution, to pay for being here and to 
pay for their fear coming here.
    I would think that this is not just some individual act. I 
understand that there are certain type, mobster type criminal 
elements involved. I would think that somewhere in this country 
there would be something, some law enforcement agency that 
would keep this type of information, or ought to be. Do you 
know of anyone here in this country keeping that information?
    Mr. Haugen. Just to respond, our focus is entirely upon 
international forced prostitution, but I would imagine that my 
former colleagues at the Department of Justice and the FBI 
would have some data on their view of the magnitude of the 
sexual trafficking problem here in the United States. I am 
quite confident of that.
    Mr. Hilliard. My final question: Is there a list anywhere 
that you have run across that shows in any detail those 
countries that are worse off in terms of sexual trafficking?
    Ms. Lederer. I think Ms. Lord did touch on a number of the 
countries. I know I don't know of any lists. From the work we 
have done, I believe that every country has a trafficking 
problem, and it isn't only 10 or 12 countries. We really do 
have to look at the seriousness of commercial sexual 
exploitation in all its forms in every country.
    Mr. Hilliard. When you start dealing with that list, there 
is no country that is going to be want to be at the top. That 
is one weapon you may want to think of down the road. We used 
that during the civil rights movement. No city, no government, 
no state wanted to be at the top.
    Ms. Lederer. Good advice.
    Mr. Haugen. The traditional human rights organizations have 
done some work in trying to identify those countries that are 
egregious violators of sexual trafficking and have done a good 
job of raising that. It raises the stakes considerably when 
that opinion of a country is rendered by an official body of 
the U.S. Government.
    Mr. Hilliard. Yes, I would think so. Thank you very much 
for your testimony.
    Mr. Smith. Thank you very much, and for cosponsoring the 
legislation. One of the reasons we are at logger heads with the 
Administration on the very office we hope to create is that the 
very reason we heard in testimony today, the Administration is 
unable because there is a dearth of data, to tell us who are 
the dirty dozen, or the top 10 in terms of the offending 
countries. We have inadequate information and we need to hyper 
start this whole process. That is what our legislation in part 
would seek to do. In addition to the penalty side, it would 
also massively gather that information.
    Like you said, it would take a model from civil rights, and 
begin to say these are the worst offenders. If you want to get 
off that list, there are things you can do. Stop exporting and 
exploiting your women.
    So the gentleman's point is well taken, and we do cover 
that in the legislation. So I thank the gentleman for that.
    I want to thank our witnesses as well for your great work. 
Again, Anita, thank you for your courage in coming forward. You 
have done the cause of trying to stop this horrible practice a 
great service today. We are very, very grateful.
    Thank you.
    [Whereupon, at 4:07 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                           A P P E N D I X

                           September 14, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3274.001
    
    [GRAPHIC] [TIFF OMITTED] T3274.002
    
    [GRAPHIC] [TIFF OMITTED] T3274.003
    
    [GRAPHIC] [TIFF OMITTED] T3274.004
    
    [GRAPHIC] [TIFF OMITTED] T3274.005
    
    [GRAPHIC] [TIFF OMITTED] T3274.006
    
    [GRAPHIC] [TIFF OMITTED] T3274.007
    
    [GRAPHIC] [TIFF OMITTED] T3274.008
    
    [GRAPHIC] [TIFF OMITTED] T3274.009
    
    [GRAPHIC] [TIFF OMITTED] T3274.010
    
    [GRAPHIC] [TIFF OMITTED] T3274.011
    
    [GRAPHIC] [TIFF OMITTED] T3274.012
    
    [GRAPHIC] [TIFF OMITTED] T3274.013
    
    [GRAPHIC] [TIFF OMITTED] T3274.014
    
    [GRAPHIC] [TIFF OMITTED] T3274.015
    
    [GRAPHIC] [TIFF OMITTED] T3274.016
    
    [GRAPHIC] [TIFF OMITTED] T3274.017
    
    [GRAPHIC] [TIFF OMITTED] T3274.018
    
    [GRAPHIC] [TIFF OMITTED] T3274.019
    
    [GRAPHIC] [TIFF OMITTED] T3274.020
    
    [GRAPHIC] [TIFF OMITTED] T3274.021
    
    [GRAPHIC] [TIFF OMITTED] T3274.022
    
    [GRAPHIC] [TIFF OMITTED] T3274.023
    
    [GRAPHIC] [TIFF OMITTED] T3274.024
    
    [GRAPHIC] [TIFF OMITTED] T3274.025
    
    [GRAPHIC] [TIFF OMITTED] T3274.026
    
    [GRAPHIC] [TIFF OMITTED] T3274.027
    
    [GRAPHIC] [TIFF OMITTED] T3274.028
    
    [GRAPHIC] [TIFF OMITTED] T3274.029
    
    [GRAPHIC] [TIFF OMITTED] T3274.030
    
    [GRAPHIC] [TIFF OMITTED] T3274.031
    
    [GRAPHIC] [TIFF OMITTED] T3274.032
    
    [GRAPHIC] [TIFF OMITTED] T3274.033
    
    [GRAPHIC] [TIFF OMITTED] T3274.034
    
    [GRAPHIC] [TIFF OMITTED] T3274.035
    
    [GRAPHIC] [TIFF OMITTED] T3274.036
    
    [GRAPHIC] [TIFF OMITTED] T3274.037
    
    [GRAPHIC] [TIFF OMITTED] T3274.038
    
    [GRAPHIC] [TIFF OMITTED] T3274.039
    
    [GRAPHIC] [TIFF OMITTED] T3274.040
    
    [GRAPHIC] [TIFF OMITTED] T3274.041
    
    [GRAPHIC] [TIFF OMITTED] T3274.042
    
    [GRAPHIC] [TIFF OMITTED] T3274.043
    
    [GRAPHIC] [TIFF OMITTED] T3274.044
    
    [GRAPHIC] [TIFF OMITTED] T3274.045
    
    [GRAPHIC] [TIFF OMITTED] T3274.046
    
    [GRAPHIC] [TIFF OMITTED] T3274.047
    
    [GRAPHIC] [TIFF OMITTED] T3274.048
    
    [GRAPHIC] [TIFF OMITTED] T3274.049
    
    [GRAPHIC] [TIFF OMITTED] T3274.050
    

</pre></body></html>
